<html>
<title> - NOMINATION OF MARY E. PETERS TO BE SECRETARY OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 109-944]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-944
 
     NOMINATION OF MARY E. PETERS TO BE SECRETARY OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-168                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2006...............................     1
Statement of Senator Burns.......................................    19
Statement of Senator DeMint......................................    21
Statement of Senator Dorgan......................................    16
Statement of Senator Inouye......................................    14
Statement of Senator Lautenberg..................................    23
    Prepared statement...........................................    23
Statement of Senator Lott........................................    14
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Pryor.......................................    25
Statement of Senator Rockefeller.................................    17
Statement of Senator Smith.......................................    21
    Prepared statement...........................................    22
Statement of Senator Snowe.......................................    26
Statement of Senator Stevens.....................................     1

                               Witnesses

Kyl, Hon. Jon, U.S. Senator from Arizona.........................     2
Peters, Hon. Mary E., Nominee to be Secretary of Transportation..     3
    Prepared statement...........................................     5
    Biographical information.....................................     8

                                Appendix

Chilson, George, President, National Association of Railroad 
  Passengers, prepared statement.................................    33
Response to written questions submitted to Hon. Mary E. Peters 
  by:
    Hon. Barbara Boxer...........................................    48
    Hon. Conrad Burns............................................    40
    Hon. Maria Cantwell..........................................    50
    Hon. Daniel K. Inouye........................................    33
    Hon. John F. Kerry...........................................    45
    Hon. Frank R. Lautenberg.....................................    53
    Hon. Olympia J. Snowe........................................    41


     NOMINATION OF MARY E. PETERS TO BE SECRETARY OF TRANSPORTATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. The Committee will come to order.
    The Chairman would agree that it would be proper to allow 
time for the two Senators from Arizona to introduce the 
nominee. Senator McCain, you're the senior Senator.
    Senator McCain. Thanks very much. I remind Senator Kyl of 
that daily.
    [Laughter.]

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Well, thank you.
    It's with great pleasure, Mr. Chairman, I introduce to the 
Committee Mary Peters, who has been nominated, as you well 
know, as the 15th Secretary of the Department of 
Transportation. And, of course, all of us are familiar with 
Mary through her nearly 4 years of service as the Administrator 
of the Federal Highway Administration from 2001 to 2005. She's 
a fourth-generation Arizonan, was the director of the Arizona 
Department of Transportation, known as ADOT, prior to taking 
the helm of the Highway Administration. She gained nearly 16 
years of firsthand transportation agency experience during her 
service at the Arizona Department of Transportation, and 
another 4 years at the Federal Highway Administration.
    I appreciate very much the President of the United States 
selecting such an outstanding and capable individual to fill 
this important leadership position. She has a long and 
accomplished professional record. And, Mr. Chairman, she has so 
many awards, I will not repeat them. I would ask that my 
complete statement be made part of the record.
    And I would like very much that this committee approve, or 
consider and then approve, her nomination as quickly as 
possible, as I think it would be good for the country to have 
her on the job before we go out for recess.
    And I thank you for allowing me to make this statement on 
her behalf.
    The Chairman. Your statement will appear in the record in 
full.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Thank you. It is with great pleasure that I introduce to the 
Committee Mary Peters, who has been nominated to serve as the 15th 
Secretary of the U.S. Department of Transportation. Of course, most of 
you are already familiar with Mary through her nearly 4 years of 
service as the Administrator of the Federal Highway Administration 
(FHWA), from 2001-2005.
    Mary Peters is a fourth generation Arizonan and was the Director of 
the Arizona Department of Transportation, known as ADOT, prior to 
taking the helm at FHWA. She gained nearly 16 years of firsthand 
transportation agency experience during her service at ADOT and another 
4 years at FHWA. This hands-on experience will serve her well in 
fulfilling the duties of the Secretary, and I commend the President for 
selecting such an outstanding and capable individual to fill this 
important leadership position.
    Mary has a long and accomplished professional record and has often 
received well-deserved recognition for her efforts, whether in 
Washington, D.C. or in Arizona. For example, she has received numerous 
awards throughout her career from the Women's Transportation Seminar, 
including the 2004 National Woman of the Year Award. She has also 
received awards from the American Association of State Highway and 
Transportation Officials (ASHTO), the National Council on Public 
Private Partnerships and the American Road and Transportation Builders 
Association. And not surprising, Mary also been recognized as one of 
the Top 100 Who's Who of Arizona Women in Business, and as the Most 
Influential Person in Arizona in Transportation.
    On a personal side, Mary is one of the kindest persons you'd ever 
want to know. She is a great humanitarian and is genuinely interested 
in the lives of all of her employees. I am told Mary not only knew the 
name of every Arizona DOT employee by their names, but she also knew 
the names of their spouses and children. She understands the importance 
of family and friends and she shows it every day in her care and 
concern for those around her.
    And finally, I cannot resist mentioning something from Mary's past 
that I hope she will rely on as she works to meet the challenges she 
will face as the DOT Secretary:
    Before Mary became involved in transportation, she was in the 
butchering business. She made her living by cutting pork. As I said 
during her last confirmation hearing, this background should come in 
very handy and I urge her to rely heavily on her past pork-cutting 
expertise as she works to carry out her new responsibilities. Mary will 
undoubtedly face unlimited requests to support and fund Members' pork 
projects but to the extent of her authority, those projects would more 
appropriately deserve the same treatment that she mastered as a 
butcher.
    Thank you.

    The Chairman. Senator Kyl?

                  STATEMENT OF HON. JON KYL, 
                   U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you. Mr. Chairman, first let me agree 
with my colleague Senator McCain that it would be very much in 
the best interests of this country if the nomination of Mary 
Peters could move forward very expeditiously, first through the 
Committee and then on to the floor of the Senate.
    My colleague, of course, traced the career of Mary Peters, 
a distinguished career focused on transportation issues. I'll 
just note a couple of things that were not said.
    When she was here in Washington as the head of the Federal 
Highway Administration at DOT, among other things she led 
efforts to improve the safety and security of our country's 
highways and bridges, reduce congestion, and institutionalize 
better fiscal oversight and accountability. And she 
distinguished herself in the same way when she headed the 
Department of Transportation in the State of Arizona. Both 
Senator McCain and I know Mary Peters personally; and so, we're 
obviously biased. But, for my place, I couldn't recommend more 
strongly someone who has all of the attributes, not just the 
skills and the experience, but the personal qualities to be a 
part of the President's Cabinet, to be advising him, to working 
with Members of Congress. And so, when, once again, she agreed 
to answer the President's call to leave the warm and sunny 
weather of Arizona to come back to Washington, I applauded her 
choice, and I urge the Committee to act quickly so that she can 
begin her responsibilities here as soon as possible, serving 
the people of this country.
    She's a person of great integrity and charisma, and I'm 
very proud to call her a friend and commend her to the 
Committee.
    The Chairman. Well, thank you very much, Senator.
    I would suggest that the nominee present her statement, 
then we'll go around and give Senators an opportunity to 
question the nominee.
    Ms. Peters?

 STATEMENT OF HON. MARY E. PETERS, NOMINEE TO BE SECRETARY OF 
                         TRANSPORTATION

    Ms. Peters. Mr. Chairman, thanks so much.
    Chairman Stevens, Co-Chairman Inouye, and Members of the 
Committee, it is an absolute honor to appear before you today 
as you consider my nomination for Secretary of Transportation. 
And I sincerely appreciate my home state Senators, Senator John 
McCain and Senator Jon Kyl, for being here today to introduce 
me.
    I am deeply grateful that President Bush has offered me the 
opportunity to again serve my country in the field of 
transportation.
    I also would like to express my gratitude to my family, 
whose love and support have made it possible for me to be here 
today. My husband is home today; however, he is with our two 
brand-new grandchildren. One got out of the hospital 8 days 
ago, one got out of the hospital 2 days ago. So, they are 
appropriately there taking care of those new babies. I have 
pictures to bore you with, should you like to see those later.
    [Laughter.]
    Ms. Peters. But I know that they are with me in spirit here 
today.
    And my grandchildren have asked me to say their names. 
Jeremy, Jenna, Charles, Shannah, and Daniel, I love you.
    Thank you, Senators.
    [Laughter.]
    The Chairman. Now, are there any of your family with you 
today?
    Ms. Peters. No, sir, they are not here.
    The Chairman. Thank you.
    Ms. Peters. Mr. Chairman, America's continued economic 
vitality, our ability to compete in a global economy, and our 
citizens' high quality of life are all dependent upon dynamic, 
well-performing transportation systems. And while the current 
systems have served our nation well, those systems must be 
strengthened to meet even greater challenges ahead.
    The challenges are numerous, and they affect every mode of 
transportation. Our vital transportation infrastructure is 
showing signs of aging. Traditional transportation programs and 
their funding sources are no longer able to keep pace with 
demand. Increasing congestion on our highways, railways, 
airports, and seaports reduces our nation's economic 
productivity and consumes our citizens' time.
    Despite the progress that we have made, transportation 
safety and transportation security are a greater concern than 
ever before. I do not take lightly the challenges that I would 
face, nor the responsibilities that I would accept, should you 
vote to confirm my nomination. I believe my 20-plus-year career 
in transportation has given me the hands-on experience, the 
technical knowledge, and the leadership skills necessary to 
identify and implement the right solutions for these 
challenges.
    For more than 16 years, as Senator McCain has said, I 
worked for the Arizona Department of Transportation. That 
position allowed me to gain valuable insight on the way Federal 
policy affects real-life aspects of planning, building, and 
operating transportation systems on state, regional, and local 
levels.
    As director of ADOT for the last 3 years of that time, I 
oversaw highway, transit, rail, and aviation, as well as motor 
carrier programs, driver licensing, vehicle registration, 
transportation-related clean-air programs, transportation tax 
collection and distribution. I learned the economics of 
developing and maintaining transportation infrastructure, as 
well as the responsibilities and accountabilities necessary 
when entrusted with public funds.
    I was then privileged to serve for nearly 4 years as 
Administrator of the Federal Highway Administration, and had 
the honor of working with you, with Congress, to develop the 
important SAFETEA-LU legislation.
    As Administrator, I made safety my highest priority. And if 
confirmed as Secretary, I will ensure that safety continues to 
be the Department's highest priority and that safety 
considerations are built into every transportation decision.
    As Administrator, I also focused the Federal Highway 
Administration on improving its oversight and accountability 
for public funds. During my tenure, we implemented policies for 
better management of mega-projects, and I worked very closely 
with Ken Mead, the Inspector General, to eliminate waste, 
fraud, and abuse in the programs.
    If confirmed, a significant priority will be the 
reauthorization of the Nation's aviation programs. I look 
forward to working with Congress to improve aviation safety and 
to identify new approaches for modernizing the Air Traffic 
Control System, improving the environmental review process for 
airports, and addressing the aviation needs of small urban 
communities and rural areas.
    We must continue to promote the use of public 
transportation and assist states and communities to maximize 
transit capacity and reliability. Intercity passenger rail 
should be an important component of our nation's transportation 
network. If confirmed, I look forward to working with Congress 
to pass a bill that will ensure the Nation's passenger rail 
system delivers maximum benefit to its customers.
    Our nation's maritime industry plays an important role in 
daily commerce. In fact, our seaports handle 2.5 billion tons 
of goods and materials each year. If confirmed, I will work 
with industry and state officials to alleviate congestion at 
our nation's seaports.
    Small urban and rural transportation needs--air, rail, and 
public transportation, as well as roads--were always very 
important considerations to me when I served at the Arizona 
DOT. And, if confirmed, I would look forward to working with 
you to maximize the mobility options for all Americans, 
regardless of where they live.
    Mr. Chairman, I believe my experience, my understanding of 
state and local transportation needs, and my commitment to 
ensuring the continued excellence of the American 
transportation system will enable me to provide effective 
leadership for the U.S. Department of Transportation. In these 
challenging times, we need that leadership. If confirmed as the 
next Secretary, I look forward to working with Congress, with 
President Bush, and other members of the Cabinet, as well as 
our public- and private-sector partners, to ensure our nation 
and the American people are provided a safe, secure, efficient, 
and effective transportation system, both now and into the 
future.
    Mr. Chairman and Members of the Committee, I sincerely 
appreciate the opportunity that you have given me here today, 
and I will respond to questions, as the time is appropriate.
    Thank you, sir.
    [The prepared statement and biographical information of Ms. 
Peters follow:]

 Prepared Statement of Hon. Mary E. Peters, Nominee to be Secretary of 
                             Transportation

    Chairman Stevens, Co-Chairman Inouye, Members of the Committee, I 
am honored to appear before you today as you consider my nomination for 
Secretary of Transportation. I am deeply grateful that President Bush 
has offered me the opportunity to again serve my country in the field 
of transportation. I also want to express my gratitude to my family 
whose love and support have made it possible for me to be here today.
    I am especially honored to succeed Secretary Norman Mineta and am 
grateful for having had the experience of working on his team. Through 
his outstanding career in public service, Secretary Mineta made an 
indelible impression on transportation policy. If confirmed, I know I 
will have quite a legacy to live up to at the Department.
    America's continued economic vitality, our ability to compete in a 
global economy, and our citizens' high quality of life, are all 
dependent upon dynamic and well-performing transportation systems. And, 
while the current systems have served our nation well, they must be 
strengthened to meet even greater challenges ahead.
    These challenges are numerous, and they affect every mode of 
transportation. Our vital transportation infrastructure is showing 
signs of aging. Traditional transportation programs and their funding 
sources are no longer able to keep pace with demand. Increased 
congestion on our highways, railways, airports, and seaports reduces 
our nation's economic productivity and consumes our citizens' time. 
Despite the progress we have made, transportation safety and security 
are a greater concern than ever before.
    I do not take lightly the challenges I would face, nor the 
responsibilities I would accept, should you vote to confirm my 
nomination to be Secretary of Transportation. I believe my 20-year 
career in transportation has given me the hands-on experience, 
technical knowledge, and leadership skills necessary to identify and 
implement the right solutions for these challenges.
    For more than 16 years, I worked for the Arizona Department of 
Transportation (ADOT), where I gained valuable insight into the ways 
Federal policy affects real-life aspects of planning, building, and 
operating transportation systems on local, state, and regional levels. 
As Director of ADOT for 3 years, I oversaw highway, transit, rail, and 
air transportation in Arizona, as well as motor carrier programs, 
driver licensing and vehicle registration, transportation-related clean 
air programs, and transportation tax collection and distribution. In 
Arizona, I learned the economics of developing and maintaining 
transportation infrastructure, as well as the responsibility and 
accountability necessary when entrusted with public funds.
    I was then privileged to serve as the 15th Administrator of the 
Federal Highway Administration (FHWA) for nearly 4 years, and had the 
honor of working closely with Congress on the development of the 
important Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU) legislation.
    As Administrator, I made highway safety my highest priority and 
worked closely with the Administrators of the Federal Motor Carrier 
Safety Administration (FMCSA) and the National Highway Traffic Safety 
Administration (NHTSA) to develop strategies for reducing fatalities 
and injuries. During the drafting of the Administration's surface 
transportation reauthorization proposal, I championed an increased 
focus on, and funding for, safety.
    Yet, despite the gains we have made, safety remains an ongoing 
challenge. We cannot complacently accept fatalities and injuries as the 
``price we pay'' for mobility. If confirmed as Secretary, I will ensure 
that safety continues to be the Department's top priority and that 
safety considerations are built into every transportation decision.
    While rail accidents have begun to decline as a result of the 
National Rail Safety Action Plan, which was issued last year in 
response to several major accidents, we must do even more to reduce the 
number of train accidents, including those that involve highway-rail 
grade crossings. If confirmed, I will ensure that the Federal Railroad 
Administration continues to work with industry to implement new 
technologies that will create a safer rail system.
    This year's incident at Prudhoe Bay demonstrates we also have more 
work to do on pipeline safety and, if confirmed, I will ensure the 
Department continues to proactively reach out to stakeholders and other 
Federal, state, and local agencies to ensure a safe and reliable 
pipeline infrastructure. If confirmed, I also look forward to working 
with this committee on the pipeline safety program reauthorization. 
This is an important bill that will allow the Department to ensure the 
continued safety, security, and reliability of our pipeline system.
    If I am confirmed, reauthorizing the Nation's aviation programs 
will be a significant priority, and I look forward to working with 
Congress on crafting a bill that not only improves aviation safety, but 
also identifies new approaches to modernizing the air traffic control 
system to meet increased travel demand, improves the environmental 
review process for airport infrastructure, and addresses the aviation 
needs of small urban communities and rural areas.
    We must continue to promote the use of public transportation and 
assist states and communities to maximize transit capacity and 
reliability. Transit is not just a big city concern. Many rural areas 
are increasingly recognizing the many benefits of transit and, if 
confirmed, I plan to ensure the successful implementation of SAFETEA-
LU's expanded rural transit programs.
    The terrorist attacks on the transit systems in Madrid and London 
have highlighted the importance of transit security in this post-9/11 
world. Although the Department of Homeland Security (DHS) has the lead 
on security matters, if confirmed as Secretary, I assure you the 
Department of Transportation will continue to work collaboratively with 
DHS to address the vulnerabilities of our nation's open public 
transportation systems.
    Intercity passenger rail should be an important component of our 
nation's transportation network. If confirmed, I look forward to 
working with Congress to pass a bill that will ensure our nation's 
passenger rail system delivers maximum benefits to consumers.
    Our Nation's maritime industry plays an important role in our daily 
commerce as well as an auxiliary role for security in times of war or 
national emergency. In today's global trade economy it is vital that we 
maintain a robust marine transportation system. The backbone of that 
system is the Jones Act, which I strongly support. We must also 
continue to work to address congestion at our ports. Innovative 
technologies such as PierPass at the Port of Los Angeles/Long Beach 
have made progress in addressing congestion at that facility. If 
confirmed, I will work with industry and state and local officials to 
find other novel ways to tackle this problem at our ports.
    My experience in transportation management in Arizona, and at the 
Federal level, made me acutely aware of the need to focus on better 
overall management and operation of an integrated system, and to 
identify the appropriate balance of transportation alternatives. I am 
convinced that the Department of Transportation for the 21st century 
must employ a systems approach to managing transportation and support 
operational strategies with cutting-edge technologies. Research will 
play a vital role and we must define and promote an appropriate 
national agenda for research and technology deployment.
    Small urban and rural transportation needs--air, rail, public 
transportation, as well as roads--were always important considerations 
when I served as Director of ADOT. If confirmed, I look forward to 
working with you to maximize mobility options for all Americans, 
regardless of where they live.
    As Administrator of FHWA, I worked to fulfill a commitment I made 
at my confirmation hearing to improve and strengthen FHWA oversight and 
accountability for Federal funds. To improve the accuracy of financial 
data and assure the agency fully executed its stewardship 
responsibilities, I established an Office of the Chief Financial 
Officer reporting directly to the Administrator, and led the 
development of FHWA's Financial Integrity Review and Evaluation (FIRE) 
Program, an important tool for better financial controls. I worked very 
closely with the Office of Inspector General to increase awareness of 
transportation fraud and, more importantly, to take action to prevent 
it. I oversaw implementation of policy and guidance for better 
management of mega-projects, and worked to eliminate waste, fraud, and 
abuse in programs administered by the agency.
    If confirmed as Secretary of Transportation, I pledge conscientious 
stewardship for resources and responsibilities entrusted to the 
Department. The American public and the Nation's business community 
must feel confident that every dollar provided to transportation is 
used wisely and well. This confidence must derive from results the 
public can see, such as reduced traffic congestion, fewer lives lost, 
seamless delivery of goods, improved livability, and respect for human 
and natural environments in transportation construction, operation, and 
performance. Accountability must be the watchword for every Department 
of Transportation program.
    Mobility is one of our country's greatest freedoms, but congestion 
across all of our transportation modes continues to limit predictable, 
reliable movement of people and goods, and poses a serious threat to 
continued economic growth. Congestion no longer affects only roads in 
larger urban areas, but is spreading across America. After a decline 
following 9/11, our aviation system is once again nearing capacity, and 
instances such as severe weather or a security alert can result in 
gridlock of the system.
    The Department of Transportation, under Secretary Mineta's 
leadership, recently launched a national multi-modal initiative to 
alleviate congestion in travel and freight movement. The initiative 
provides a clear plan for Federal, state, and local officials to follow 
for improving operation of our surface transportation system, 
encouraging the development and deployment of new technologies and 
construction methods, and expanding opportunities for private 
investment in transportation infrastructure. If confirmed as Secretary, 
I will continue to advance this comprehensive national congestion 
strategy.
    Public-private partnerships can bring much-needed capital to the 
table, and market-based congestion solutions can provide a means to 
fund infrastructure improvements and fight congestion. I recognize 
these methods are not appropriate solutions in every situation, rather 
they should be among the options available for state and local 
government to use as they determine appropriate.
    We cannot assume that methods of the past, whether for designing, 
financing, constructing, or operating transportation infrastructure and 
systems, will necessarily continue to be appropriate in the future. The 
National Surface Transportation Policy and Revenue Study Commission 
Congress established in SAFETEA-LU is taking on exactly such issues for 
surface transportation.
    I was honored to be appointed by President Bush to serve on the 
Commission and believe it affords a great opportunity for historic 
changes in transportation policy. If you confirm my nomination to be 
Secretary of Transportation, it will be my goal as Chair to ensure that 
the Commission produces a comprehensive and timely report to inform the 
next reauthorization of surface transportation programs.
    Mr. Chairman, Senator Inouye, I believe my experience, my 
understanding of state and local transportation needs, and my 
commitment to ensuring the continued excellence of the American 
transportation system will enable me to provide effective leadership 
for the Department of Transportation in these challenging times. If I 
am confirmed as the next Secretary of Transportation, I will work 
closely with Congress, with President Bush and other members of his 
Cabinet, and with our public- and private- sector partners to ensure 
our nation and the American people are provided a safe, secure, 
efficient, and effective transportation system now and in the future.
    I sincerely appreciate the time you have given me today as you 
consider my nomination. I will be pleased to respond to any questions 
you may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used):

        Mary Elizabeth Peters.
        Maiden name: Mary Elizabeth Ruth.

    2. Position to which nominated: Secretary, U.S. Department of 
Transportation.
    3. Date of Nomination: September 7, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.
        Office: 3200 E. Camelback Road, Suite 350, Phoenix, AZ 85018-
        2311.

    5. Date and Place of Birth: December 4, 1948, Phoenix, Maricopa 
County, AZ.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Terryl Gene Peters, Sr., Consultant Engineering, Inc. 
        (CEI), Construction Technician, Phoenix, AZ.

        Children: Tamara Marie (Peters) Cleavenger, age 38; Terryl Gene 
        Peters, Jr., age 34; Christina Rose Peters, age 27.

    7. List all college and graduate degrees. Provide year and school 
attended: University of Phoenix, Phoenix, AZ, B.A. Management, 1994.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        HDR Engineering, Inc, Sr. Vice President, Oct. 2005-present.

        Federal Highway Administration, Administrator, Oct. 2001-July 
        2005.

        Arizona Department of Transportation:

          Director, March 1998-October 2001,
          Deputy Director, July 1995-March 1998,
          Deputy Director Admin., September 1992-July 1995,
          Contract Administrator, January 1992-September 1992,
          Contract Manager, July 1988-January 1992.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, state, or local governments, other 
than those listed above, within the last 5 years.
    Commissioner, National Surface Transportation Policy and Revenue 
Study Commission, June 2006-present.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        HDR Engineering Inc., Sr. Vice President, Oct. 2005-present.

        American Association of State Highway Transportation Officials 
        (AASHTO), Board Member March 1998-October 2001.

        Western States Association of State Highway Transportation 
        Officials (WASHTO), Board Member, March 1998-October 2001.

        Women's Transportation Seminar, Member Washington, D.C. and 
        Phoenix, AZ Chapters, Member 1990-present; Advisory Board 
        Member 2001-2005.

        National Leadership Conference of Women Executives in State 
        Government, Treasurer and Board Member, September 1999-October 
        2001.

        Project Challenge, Board Member, February 1997-October 2001.

        Intelligent Transportation Society of America, Board Member, 
        1995-2000.

        Arizona Clean and Beautiful, Advisory Council Member and past 
        Board Member, 1993-1995.

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    I have held no memberships with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership that 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap. My memberships during the past 10 
years and current are as follows:

        American Association of State Highway Transportation Officials 
        (AASHTO), Board Member March 1998-October 2001.

        Western States Association of State Highway Transportation 
        Officials (WASHTO), Board Member, March 1998-October 2001.

        Arizona State University, College of Extended Education, Deans 
        Council, October 1999-October 2001.

        Grand Canyon State Employees Federal Credit Union, Past 
        President and Board Member, 1993-1995.

        University of Phoenix, Alumni Advisory Council, September 1994-
        October 2001.

        Arizona Quality Alliance, Board Member and former Senior Judge, 
        March 1999-October 2001.

        Women's Transportation Seminar, Member Washington, DC and 
        Phoenix, AZ Chapters, Member 1990-present; Advisory Board 
        Member 2001-2005.

        Arrowhead Republican Women, Member 1997-2001 and September 
        2005-present (does not restrict membership to women).

        National Leadership Conference of Women Executives in State 
        Government, Treasurer and Board Member, September 1999-Oct. 
        2001. (The organization, now defunct, was focused on 
        professional development for women leaders in state government, 
        and did not, to my knowledge, restrict membership on the basis 
        of gender.)

        Project Challenge, Board Member, February 1997-October 2001.

        Intelligent Transportation Society of America, Board Member, 
        1995-2000.

        Arizona Clean and Beautiful, Advisory Council Member and past 
        Board Member, 1993-1995.

        American Road and Transportation Builders, Public-Private 
        Ventures Committee, December 2005-present.

    12. Have you ever been a candidate for public office? I have never 
been a candidate for public office.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Sen. Jon Kyl, $700.
        Sen. John McCain, $500.
        Bush for President 2000, $750.
        Bush-Cheney 2004, $2000, $250, $200.
        Bush-Cheney 2004 Compliance Committee, $600.
        Hull for Governor, AZ 1998, $500.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Top 25 Most Influential Business Women, Greater Arizona Area, 
        1995.

        Who's Who in Arizona Women, 1997 Person of the Year, Women's 
        Transportation Seminar 1998.

        Most Influential Person in AZ transportation, AZ Business 
        Journal, 2000.

        Scholarship, Harvard University, State & Local Government 
        Executive Program Kennedy School, 2000.

        Woman of the Year Award, Women's Transportation Seminar, 2004.

        Woman of the Year Award, Women's Transportation Seminar AZ, 
        2005.

        American Road and Transportation Builders Assn. Award, 2005.

        National Council on Public Private Partnerships Leadership 
        Award, 2005.

        Am. Assn. of State Highway and Transportation Officials 
        Bartlett Award, 2005.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Numerous speeches, articles, columns, etc., while 
        Administrator, Federal Highway Administration, 2001-2005.

        Numerous speeches, articles, columns, etc., while Director, AZ 
        DOT, 1998-2001.

        Speech, American Highway Users Alliance, May 2000.

        Article, Associated General Contractors, Arizona Division, 
        2000.

        Article, Intelligent Transportation Society of America, 2000.

        Speech, AZ Alliance for Construction Excellence, 2005.

        Remarks, American Association of State Highway and 
        Transportation Officials, 2005.

        Remarks, Tucson/Pima County, AZ Regional Transportation 
        Association, 2005.

        Remarks, AZ Trucking Association, 2005.

        Speech, Multi-State Highway Commission, 2006.

        Speech, AZ Transit Association, 2006.

        Presentation, Design Professionals Coalition, 2006.

        Speech, AZ State University Distinguished Transportation 
        Seminar, 2006.

        Presentation, Indiana Top Officials, 2006.

        Article, Better Roads Magazine, 2006.

        Article, Innovation Briefs, 2005.

        Foreword to book, Street Smart, 2005.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    Testimony before the House Transportation and Infrastructure 
Committee, Ground Transportation Subcommittee, U.S. House of 
Representatives regarding Notice of Proposed Rulemaking for Planning 
and Environmental Processes, September 13, 2000. Testimony was provided 
in my official capacity as Director of the Arizona Department of 
Transportation.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    As required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on my financial interests or those of any person 
whose interests are imputed to me, unless I first obtain a written 
waiver, pursuant to section 208(b)(1), or qualify for regulatory 
exemption, pursuant to section 208(b)(2). I understand that the 
interests of the following persons are imputed to me: my spouse, minor 
children, or any general partner; any organization in which I serve as 
an officer, director, trustee, general partner or employee; and any 
person or organization with which I am negotiating or have an 
arrangement concerning prospective employment.
    When I began working at HDR, Inc., I received a signing bonus, 
contingent upon my continuing to work for the company for a minimum of 
2 years. This bonus is reported on Schedule A of my financial 
disclosure report (SF-278) as a part of my ``salary and bonus.'' I am 
contractually obligated to repay HDR, Inc., this bonus if my 
resignation occurs within 1 year. As a result, upon my resignation from 
HDR, Inc., I will promptly repay the signing bonus.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    No. Upon confirmation, I will resign my position as Senior Vice 
President, HDR, Inc. Furthermore, pursuant to 5 CFR Sec. 2635.502, for 
1 year after I terminate this position, I will not participate in any 
particular matter involving specific parties in which HDR, Inc., is a 
party or represents a party, unless I am authorized to participate.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    As required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on my financial interests or those of any person 
whose interests are imputed to me, unless I first obtain a written 
waiver, pursuant to section 208(b)(1), or qualify for regulatory 
exemption, pursuant to section 208(b)(2). I understand that the 
interests of the following persons are imputed to me: my spouse, minor 
children, or any general partner; any organization in which I serve as 
an officer, director, trustee, general partner or employee; and any 
person or organization with which I am negotiating or have an 
arrangement concerning prospective employment.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    Upon confirmation, I will resign my position as Senior Vice 
President, HDR, Inc. Furthermore, pursuant to 5 CFR Sec. 2635.502, for 
1 year after I terminate this position, I will not participate in any 
particular matter involving specific parties in which HDR, Inc., is a 
party or represents a party, unless I am authorized to participate.
    My spouse is employed by CEI, Inc., from which he receives a fixed 
annual salary. Pursuant to 5 CFR Sec. 2635.502, I will not participate 
in any particular matter involving specific parties in which CEI, Inc., 
is or represents a party, unless I am authorized to participate.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.

        Testimony and discussions related to the SAFETEA-LU 
        transportation authorization legislation bills while 
        Administrator, Federal Highway Administration, 2003-2005.

        Testimony and discussions related to appropriations bills for 
        programs administered by the Federal Highway Administration, 
        2001-2005.

        Testimony, Indiana General Assembly, 2006 related to Major 
        Moves Legislation.

        Testimony, Illinois State Senate Approps II, 2006, regarding 
        public-private partnerships.

    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    As required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on my financial interests or those of any person 
whose interests are imputed to me, unless I first obtain a written 
waiver, pursuant to section 208(b)(1), or qualify for regulatory 
exemption, pursuant to section 208(b)(2). I understand that the 
interests of the following persons are imputed to me: my spouse, minor 
children, or any general partner; any organization in which I serve as 
an officer, director, trustee, general partner or employee; and any 
person or organization with which I am negotiating or have an 
arrangement concerning prospective employment.
    Upon confirmation, I will resign my position as Senior Vice 
President, HDR, Inc. Furthermore, pursuant to 5 CFR Sec. 2635.502, for 
1 year after I terminate this position, I will not participate in any 
particular matter involving specific parties in which HDR, Inc., is a 
party or represents a party, unless I am authorized to participate.
    My spouse is employed by CEI, Inc., from which he receives a fixed 
annual salary. Pursuant to 5 CFR Sec. 2635.502, I will not participate 
in any particular matter involving specific parties in which CEI, Inc., 
is or represents a party, unless I am authorized to participate.
    My spouse and I participate in defined benefit pension plans with 
the Arizona State Retirement System. Therefore, pursuant to 18 U.S.C. 
Sec. 208, I will not participate personally and substantially in any 
particular matter that will have a direct and predictable effect on the 
ability or willingness of the State of Arizona to provide these 
contractual benefits to my spouse and me, unless I first obtain a 
written waiver or qualify for a regulatory exemption.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, state, or other law enforcement authority of any Federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was named, in my official capacity as Director of the Arizona 
Department of Transportation, in a civil rights action filed against 
the agency. I had directly supervised two of the individual plaintiffs 
at some time during their tenure with the agency. Without admission of 
any fault on the part of the agency, a settlement was negotiated with 
the plaintiffs on the class action suit. Cases for individual 
plaintiffs have been adjudicated in favor of the State of Arizona. To 
the best of my knowledge, other agency proceedings and civil litigation 
relating to my matters occurring during my service at Arizona DOT from 
03/98 to 10/02 have not referenced specific action by or relationship 
to me personally.
    As Federal Highway Administrator, from 10/02 to 07/05, I was named 
in an official capacity in a number of lawsuits involving the Federal 
Highway Administration. To the best of my knowledge, I (as well as the 
Secretary and Federal Motor Carrier Safety Administrator) was named 
personally in only one lawsuit, filed in December 2001, which involved 
the admission of Mexican owned trucks into the United States. The 
complaint involved decisions going back to 1995, but at the time of my 
appointment as Federal Highway Administrator in 2001, and thereafter, 
the Federal Highway Administration had no role in deciding whether to 
allow Mexican trucks to operate in the United States. This case was 
dismissed by the Federal District Court in January 2003, a decision 
which was affirmed by the Court of Appeals in February 2004.
    HDR, Inc. has received subpoenas from government investigators to 
produce records pertaining to the collapse of a pre-cast concrete 
ceiling panel in the I-90 Boston Marine Industrial Park Tunnel. HDR was 
the designer of the tunnel structure (the concrete ``box'') in the 
early 1990s. HDR was not the designer of the ceiling panels or the 
hangers that collapsed. HDR is complying with all requests for 
documents and is assisting the NTSB with the investigation.
    HDR, Inc. has been named in a lawsuit filed by the family of the 
woman who died as a result of the ceiling collapse. I had no 
involvement with HDR's work on the I-90 Boston Marine Industrial Park 
Tunnel.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    As director of the Arizona Department of Transportation, I had 
responsibility over functions involving highways, roadways, structures, 
aviation, transit, research, vehicle registration and driver license 
functions, motor carrier licensing, motor carrier safety inspections, 
titling and tax collection.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? If so, please explain.
    I was named, in my official capacity as Director of the Arizona 
Department of Transportation, in a civil rights action filed against 
the agency. I had directly supervised two of the individual plaintiffs 
at some time during their tenure with the agency. Without admission of 
any fault on the part of the agency, a settlement was negotiated with 
the plaintiffs on the class action suit. Cases for individual 
plaintiffs have been adjudicated in favor of the State of Arizona. To 
the best of my knowledge, other agency proceedings and civil litigation 
relating to my matters occurring during my service at Arizona DOT from 
03/98 to 10/02 have not referenced specific action by or relationship 
to me personally.
    As Federal Highway Administrator, from 10/02 to 07/05, I was named 
in an official capacity in a number of lawsuits involving the Federal 
Highway Administration. To the best of my knowledge, I (as well as the 
Secretary and Federal Motor Carrier Safety Administrator) was named 
personally in only one lawsuit, filed in December 2001, which involved 
the admission of Mexican owned trucks into the United States. The 
complaint involved decisions going back to 1995, but at the time of my 
appointment as Federal Highway Administrator in 2001, and thereafter, 
the Federal Highway Administration had no role in deciding whether to 
allow Mexican trucks to operate in the United States. This case was 
dismissed by the Federal District Court in January 2003, a decision 
which was affirmed by the Court of Appeals in February 2004.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Well, thank you very much, Ms. Peters.
    I think we'll have a round of questions, as I said. We'll 
limit the first round to 5 minutes. I expect that almost every 
member will come. We'll see how much time we'll take.
    Let me start off by saying, you know, as the junior member 
of this committee, I remember when we eliminated the Civil 
Aeronautics Board. One of the mechanisms we put in place to 
assure that small isolated areas would continue to get air 
service, where needed, was the Essential Air Service program. 
There have been a lot of comments about it. And, undoubtedly, 
it needs to be reviewed and reformed. But have you had a chance 
to examine that program? Do you know that program?
    Ms. Peters. Mr. Chairman, yes, I do know of the program, 
and I know of its importance. It was certainly an important 
program in the State of Arizona, as well. And, if confirmed, I 
would look forward to working with you to continue that 
program.
    The Chairman. Well, thank you very much.
    We're also looking at two concepts. One is the next-
generation air transport system, and the other is a joint 
planning and development office for that system. Are you 
familiar with the background of what we've done so far on that 
approach to that new system?
    Ms. Peters. Mr. Chairman, yes, I have had the opportunity 
to be briefed by Administrator Blakey, as well as others in the 
agency, and would look forward to helping provide leadership 
for that system. The coordination with other agencies, like DHS 
and Department of Defense, as well as NASA, would be very 
important in that regard.
    The Chairman. Well, I appreciate that. We've got an 
enormous problem with these new small business jets--I like to 
call that the ``mosquito fleet''--that's going to enter the 
system. And they're going to be very efficient aircraft. I'm 
told that they'll consume about 35 percent of the fuel of the 
existing planes of that size, 9 to 12 passengers. And they will 
have about 40 percent of the weight of the current planes. But 
they're going to enter the system, and primarily be used by 
private executives. Have you looked at that problem and reached 
any conclusion on how to handle the enormous number of new 
planes that are going to enter the system?
    Ms. Peters. Mr. Chairman, I am aware of the issue, and 
aware of the incidence--the higher incidence of these planes in 
the aviation fleet. I have not yet reached any conclusions as 
to the impacts of those planes coming into the fleet, but, if 
confirmed, would look forward to learning more about that issue 
and working with you on that.
    The Chairman. Well, thank you very much.
    Our Co-Chairman is here now. Senator, I did not make an 
opening statement. We just went right into Ms. Peters' 
statement. And I would call on you for any questions or 
comments you might have.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Well, I'd just like to congratulate the 
nominee.
    Ms. Peters. Thank you, Senator.
    Senator Inouye. I had the great honor and privilege of 
meeting her yesterday. And I'm supporting her.
    Ms. Peters. Thank you, sir.
    Senator Inouye. That's my statement.
    The Chairman. Thank you very much.
    Then we will go by the early bird rule here. The staff 
tells me the next person who entered the room was Senator Lott.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman. And thank you for 
having an expeditious hearing on this nominee. And 
congratulations, Ms. Peters, on----
    Ms. Peters. Thank you.
    Senator Lott.--being nominated by the President to this 
very important position as Secretary of Transportation.
    Ms. Peters. Thank you.
    Senator Lott. Mr. Chairman, I've had occasion in the past 
to work with the nominee when she was at the Federal Highway 
Administration, and I found it to be a very satisfactory 
relationship, and we actually produced a result, and it led to 
a completion of a project that had been in the mill for 40 
years. And so, I know she can help make things happen.
    I don't want to ask a lot of questions now, because a lot 
of the questions I would ask you would be in areas that you may 
not have been involved in in the past. But let me just say 
that, as I told the nominee when I met with her, I think 
transportation is a critical part of our society and our 
economy. I think it's the best department in the government, in 
terms of actually creating jobs and doing things for people. Of 
course, the Defense Department obviously does a whole lot in 
that area. But I just believe that we need to have an agenda, a 
plan, and we need to be forward-leaning when it comes to 
transportation and how we build our roads and bridges, and 
doing more in the aviation area. We have so much we have to do 
there. Next year, we have the reauthorization of the FAA coming 
up. We have an air traffic control system that is just not up 
to the standards that we're going to have to have.
    We have had improvements in railroads, the short lines and 
the big freight lines, but we need even more. We need more 
capacity, and we need it soon. And Amtrak, we've got to decide, 
do we want a national rail passenger system, or not? Do we want 
some real reform, or not? Do we want it to be able to provide 
good service, on-time service, you know, with input from the 
states and the passengers, or not? We need leadership.
    Now, I can just say that in Congress we're going to provide 
initiatives in all these areas. As a member of the Finance 
Committee, we have a tax incentive proposal to greatly 
encourage the freight railroads to expand their capacity. We're 
going to keep pushing on Amtrak until we get a reform. And so 
on down the list.
    So, as our new Secretary of Transportation, I challenge you 
to get hold of this issue and get us moving forward. And I 
think you're going to have to speak to the White House and OMB 
a little bit, because they're not going to want to spend some 
of the money. But there is never a better dollar spent, other 
than for defense, than the money we spend on lanes, planes, 
trains, ports, and harbors. So, I hope that you will provide 
real leadership in this area.
    Just a couple of specific questions with regard to your 
appointment to the National Surface Transportation Policy and 
Revenue Study Commission. Can you give us an update on how that 
commission is going? I thought that was a good idea that could 
give us some direction. But one of the things we need is an on-
time report from that commission. What do you know about that, 
as a member of the Commission?
    Ms. Peters. Yes, Senator, I can answer that question. 
Senator, as a member of the Commission, we met, I believe, four 
times before my nomination was moved forward, and I have 
stepped out of that role for the duration of this nomination 
process.
    But, Senator, the Commission is looking at developing a 
work plan that will address all of the issues that were 
included in the legislation authorizing the Commission. There 
has been much discussion among the Commission members, and I, 
for one, have strongly stressed the need to complete that 
report and submit it to Congress on time so that it can inform 
the next surface transportation authorization.
    I'm not sure that all of the other members of the 
Commission shared that view, but, if confirmed, sir, I would 
have the honor of chairing that commission, and would certainly 
look forward to driving home the need to get that report 
completed accurately, completely, and to you on time.
    Senator Lott. Well, I hope that you will push that and get 
it to us.
    One of the other areas that I have developed some concern--
and it involves a conversion on my own part--is my concern 
about safety in all of these areas--in trains, in planes, and 
also in the highways. And we had a significant portion of the 
highway bill that had safety proposals in it. We actually 
changed our approach to states on seatbelts, for instance. And 
instead of trying to punish them or threaten them or beat them 
into submission, we gave them incentives, that if you pass the 
comprehensive seatbelt laws, you'll get a little extra money. 
And my state, which is always recalcitrant on being told by the 
Federal Government what we have to do, within 6 months did it. 
And we've seen, already, an improvement in our statistics with 
regard to seatbelt use by people involved in accidents.
    We also have asked your department, the appropriate 
department, to look at some other safety proposals to see how 
it might work with regard to child safety and some of the 
rearview activities and how kids accidentally can knock cars 
out of park and have them roll forward and kill children. So, I 
hope that you will also take a look at some of these safety 
initiatives that are being considered. I don't advocate doing 
them just for appearance's sake, but if we can do some things 
that would help in that area, I think it would be a very good 
thing for you to focus on.
    Ms. Peters. Senator, you have my commitment to do so. I 
think the greatest tragedy is for a child to lose his or her 
life in an automobile crash because they were not properly 
buckled in or in a child restraint seat.
    Senator Lott. Thank you, Mr. Chairman.
    The Chairman. Senator Dorgan is next.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. I intend 
to support the nomination.
    Let me congratulate Mary Peters. I think she has very 
substantial experience directly in these areas, so I think this 
is a good nomination.
    And I would also join my colleague Senator McCain in 
suggesting that it would make sense for us to move quickly on 
this nomination. I think having vacancies in these top 
positions in agencies is a hindrance, and I would hope we would 
move quickly on it.
    I want to mention just several things. First, Essential Air 
Service. We have, in western North Dakota and eastern Montana, 
particularly in the Williston area, an Essential Air Service 
contract connecting Williston and Dickinson, to Denver, and 
that contract--they had attempted to have a third flight a day 
when it was reauthorized a few years ago. Since that time, 
there has been substantial activity in the oil patch, and our 
region has increased ridership over 23 percent in one city, and 
12 percent in another. And I want to work with you and visit 
with you about that, because we need to connect that increasing 
activity in the oil patch to the hub in Denver with better EAS 
service.
    I also want to mention, on Amtrak, if I can, the Empire 
Builder, which runs from--it affects a number of us on this 
committee--it runs from Chicago to Seattle. The previous 
Secretary, Norm Mineta, whom you succeeded, once said, ``Trains 
that nobody wants to ride''--he was talking about long-distance 
trains, and used the Empire Builder as an example--``Trains 
that nobody wants to ride.'' I sure hope you'll dig into this 
Amtrak issue, as Senator Lott indicated. Senator Burns knows 
how important Amtrak is across Montana. I know how important it 
is across our states. And it is full. Unbelievably popular. 
It's a terrific service. And obviously Secretary Mineta didn't 
know what he was talking about, hadn't done his research. But I 
think all of us look forward to working with you on Amtrak. 
Zeroing out Amtrak funding or coming in with a proposal that 
would essentially eliminate all long-distance trains is not the 
way I think the majority on this committee believes we should 
approach this. So, I look forward to working with you on that.
    And then, Senator Inouye has been very active--and I have 
joined him--on this issue of a rulemaking with respect to 
foreign control of U.S. airlines. That is very controversial, 
as you know. Senator Inouye has proposed an amendment to 
interrupt that. I've supported that amendment. I hope we can 
have discussions about that issue, because I think that is--
that's very important.
    So, those are a few of the issues. I talked to you about a 
radar issue at--in our state, as well, at the Bismarck Commerce 
Center.
    But, having said all of that, I--you know, Mr. Chairman, we 
have a lot of nominees that come to the Congress who are 
marginally qualified--I shouldn't say ``a lot,'' but a number 
of times someone's friend is nominated. You have a depth of 
experience, I think, in transportation issues that's very, very 
important.
    I do want to mention one additional thing, and that is the 
issue of surface transportation, the STB, with respect to 
railroads. Again, my colleagues, Senator Rockefeller, Senator 
Burns, and myself, have worked long and hard on the issue of 
captive shippers. And to say that the STB does nothing is to 
give them much greater credit than they deserve. It's an 
unbelievably inept agency that--I mean, glaciers move more 
rapidly than the STB on very serious issues that they are 
confronted with. So, those of us on this committee, on a 
bipartisan basis, who push and try to cajole and force the 
actions on some of the important things for captive shippers, 
who are really, literally held captive and are paying a massive 
amount of extra money--our Public Service Commission estimates 
that North Dakotans are overcharged by $100 million--$100 
million a year. You know, we'd just like an agency to stand up 
for the interests of consumers. And that has not been the case 
for a long, long time. And, again, on a bipartisan basis, 
Members of this committee would very much like some action. 
That falls under your jurisdiction, at some point here, and we 
hope to be able to visit and work with you on all of these 
things.
    I've not asked you a question, because we didn't have 
opening statements. I know the Chairman said we could either 
ask questions or make a statement. I wanted to at least alert 
you to those issues of interest from the standpoint of one 
rural state, North Dakota. And I look forward to working with 
you, and I will look forward to seeing that--if we can get this 
nomination to the Senate as expeditiously as possible.
    Ms. Peters. Thank you, Senator Dorgan.
    The Chairman. Well, for the interest of the members, 
Senator Inouye has just consented that we'll have a vote after 
the next vote on the floor. We will convene in the President's 
Room to see if we can get an agreement to report out the 
nominee's name for consideration by the Senate.
    Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman.
    I would say, Ms. Peters, that if we're going to have a vote 
on you after our next vote, that your situation doesn't sound 
exactly dire to me.
    [Laughter.]
    Senator Rockefeller. And, I think, for--I think, for very, 
very good reason. You came to see me. We had a--we had a very 
good talk. We discussed a number of issues. But the thing that 
struck me most about you is your openness, your--the sense of 
transparency about you, and that you, kind of, look for the 
right solutions, and you're willing to stand by them, and 
you're plainspoken in the way you do it. So, I just--I want to 
praise you, and the President in his selection of you----
    Ms. Peters. Thank you.
    Senator Rockefeller.--because I think you're--I think 
you're going to be terrific. And I agree with what Senator 
Dorgan said about the transportation background. That's 
important.
    I'll just raise, a little higher than he did, the issue of 
captive shipping. That drives most of our colleagues on this 
committee crazy, but it ought to drive all of them, I think, in 
the direction of trying to solve this, and it's a very--it's a 
very simple thing. Staggers, who is a West Virginian--that 
Staggers Deregulation Act of 1984, everybody got deregulated if 
there were two lines going into a business, but the 20 percent 
who weren't didn't get deregulated. And that's--when he was 
referring to the STB--ICC, before that--there's never been any 
movement on that. And then, there's the question of revenue 
inadequacy. And the railroads always have inadequate revenues, 
and then, as you're discussing that, you open up their annual 
reports, and the revenues are overflowing in all directions.
    And this is serious, because I don't know what the West 
Virginia figures are. If his are 100 million, that means, 
probably, ours are more, because there are so many chemicals 
and coal and timber that comes out of our state--car parts, all 
kinds of things. And I think it's just a question of a Cabinet 
officer, sort of, grappling with that issue. And we've been--
I've been at it for 22 years, made absolutely no progress 
whatsoever, and so have others. It affects every one of us 
individually, as--virtually equally. Senator Kay Bailey 
Hutchison isn't here today, but, you know, Houston was just in 
a mess--or parts of Texas were in a mess when a certain 
situation happened down there. And it's got to be solved. And I 
think your transparency creates an atmosphere for doing that. I 
mean, maybe there would be a special meeting that you call. I 
met with the head of one of the big railroads this morning, and 
he seemed very open, accommodating in his attitude. Maybe 
things are changing.
    It isn't good enough to, sort of, take an individual 
industry which is having a problem and then make an 
accommodation to them, because that slides past the real 
problem. But that's a hard one.
    I would also mention the safety of motorists and 
pedestrians who--at rural rail crossings. That's a huge thing 
in West Virginia. And it's a--it's not just you, it's the DHS, 
Coast Guard, TSA, the Corps of Engineers, all kinds of other 
folks, local also, and the behavior of people. But it is an 
enormous problem. And I won't ask for an answer right now, but 
I would actually appreciate if you would, maybe, send me a 
letter giving me some of your thoughts on what we do about 
that, because the costs involved and the safety involved--like 
you mentioned, the child with the seatbelt--well, this is, sort 
of, Americans with a seatbelt for a period of a number of 
yards. And a lot of people die as a result of this.
    Another issue that I would just bring up is the--something 
that we face very much in West Virginia, where we have--only 4 
percent of West Virginia is flat. Everything else is either 
going up or down. And so, that means that when you have as many 
chemicals as we do, up and down the Ohio, and then into the 
interior and the Kanawha River, so, it was really the 
foundation state for chemicals--and so, there's the question 
of, what do you do when there's an incident, whether it's a 
terrorist attack or whether it's just a car that overturns? And 
the way of systematically handling those problems is something 
that is in your realm.
    And I would conclude, with 12 seconds. I am ranking on the 
Aviation Subcommittee here, and we've seen that the aviation 
industry has been turned upside-down, as you very well know. 
And its budget--the FAA's budget for dealing with these 
things--the Congress has consistently rejected cuts to airport 
construction funding. We ought to be redoing O'Hare Airport. I 
was there 2 days ago. I mean, it's wildly inefficient for 
today; very, very expensive. But the budget that gets submitted 
for FAA construction is extremely important. You will have a 
voice in that.
    Ms. Peters. Yes.
    Senator Rockefeller. And I want you to be sensitive to--you 
know, we've had all kinds of things that have been taken from 
our budget, but some of these things affect Americans every 
single day.
    And, with that, I'd just say that if you would think about 
those, respond to me on the rail-crossing thing, and to say 
that I'm going to very proudly vote for you. And evidently, 
very soon.
    [Laughter.]
    Ms. Peters. Thank you, sir. Thank you, sir.
    Senator Rockefeller. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Next is Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman.
    Ms. Peters, thank you very much, and congratulations on 
your nomination. And we're glad you're willing to serve.
    Ms. Peters. Thank you.
    Senator Burns. Senator Rockefeller was talking about 
aviation, and the area of aviation. I think our challenges 
there are a great deal more than they were before 9/11. All the 
passengers are back in the air prior--we had prior to 9/11. But 
the problem is, it's taking more airplanes to carry them. We've 
got our regional jets now, not big--not as big as airports, but 
making more frequent flights. I think that is--has to be put in 
the mix. And general aviation--how general aviation is treated, 
it will play, I think, an even larger role in the years to 
come. And if decisions are made in the Department of 
Transportation, in the FAA, or wherever, we've got to make sure 
that the big and the small are considered, and to be at the 
table.
    And as we talked about--in surface transportation, I think 
we're going to be facing great challenges in the terms of 
capacity constraints in our network. The next 20 years, freight 
shipments are expected to dramatically increase, placing 
serious demands on roads, aviation, rail, and waterways. My 
particular concern, as you know, relates to the role of what 
freight rates--or the freight railways play in our nation's 
infrastructure. I think we have a problem in the rail industry 
that cannot be ignored any longer. There are capacity 
constraints. I understand that. But most of those limitations 
are a symptom of a much larger problem, the lack of meaningful 
competition for rates and service in many parts of our country, 
especially Montana, and I think Senator Dorgan alluded to that 
for North Dakota a little while ago.
    We've got to remember, the other day, the Surface 
Transportation Board issued some rules on trying to deal with 
small shippers, that they may have a place to obtain, but it's 
anything under $200,000. That's--that is--that rule is not--I 
don't think has a lot of merit to it. And we will probably 
address that, some way or other, here in this committee.
    But one has to remember that it is in the law now, in 
Section 10101, in Title 49 of the U.S. Code-- ``...it is the 
policy of the United States Government to allow, to the maximum 
extent possible, competition and the demand for services to 
establish reasonable rates for transportation by rail.'' But 
there's also another line to that, ``to maintain reasonable 
rates where there is an absence of effective competition.'' We 
have to address that. And--because it's being reflected not 
only in our grain that we ship from the State of Montana to our 
ports, but the energy, the coal we ship from our--from ours 
that goes into--that goes into electricity. And, of course, 
ratepayers pay that. And we've seen a big increase there. And 
we have to deal--now, we have to deal with it in the context of 
what's good for the railroad, too, because we cannot operate 
without good rail service. We can't--we have to have them. But 
we're down to four. And so, we have to find some way--some way 
that the small and the large can survive, and along with our 
railroads, even our short lines and how we handle that.
    And there are certain things that we can do, and we should 
do in the near future, in order to address those problems and 
still take care of the infrastructure that they need to improve 
their capacity to move freight by surface transportation.
    Amtrak, I will tell you, I want you to move some folks down 
to the Department of Transportation.
    Ms. Peters. You've mentioned that, sir.
    Senator Burns. I mentioned that to you, and I think it--
because they have to be in the overall mix of our 
transportation plan in this country. And everybody says there's 
no--there's nobody who rides those trains across--the Empire 
Builder. Try and get on it, because it's a pretty busy train 
from Minneapolis to Seattle.
    So, those are the areas that I think--and I look forward in 
working with you in all of these challenges. I have no 
questions now. Thank you for coming to the office and visiting 
with us. Mr. Chairman, thank you very much for holding this 
hearing. And let's us get this--let's get this person in the 
seat that she deserves.
    Ms. Peters. Thank you, Senator.
    The Chairman. Well, thank you very much.
    I have to amend the statement I made, because absent 
Senators may have questions for the record that you will need 
to answer, so we will delay the vote on your nomination. But we 
will meet off of the floor on the next vote after the questions 
have been answered.
    Ms. Peters. Thank you.
    The Chairman. They will be presented to you in writing by 
tomorrow at 10 o'clock.
    Ms. Peters. Thank you.
    The Chairman. Senator DeMint?

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. And I want to 
express to you my full support for the nomination of Ms. 
Peters. I appreciate her courtesy in coming by my office. She 
has actually been to South Carolina to work on some innovative 
transportation solutions. I think she is open to consider 
innovative ideas.
    I think we all know that the federal Department of 
Transportation can do only so much, and I think it was the 
thought of considering taking some of the road responsibilities 
back to local and state governments while we look at national 
infrastructure for rail and what we're going to do with 
aviation may make sense at this time--and she seems willing to 
look at some innovative ideas.
    So, I appreciate her very much and look forward to 
supporting her nomination.
    Ms. Peters. Thank you, Senator.
    The Chairman. Thank you, Senator.
    Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Yes. Thank you, Mr. Chairman.
    And, Mary Peters, I congratulate you on your nomination. 
And I join my colleagues, on both sides of the aisle, in 
looking forward to voting affirmatively for your confirmation.
    As we spoke in my office about a range of issues from 
planes, trains, and automobiles, you've got a huge job. And I 
know you're up to it, both personally and professionally. 
You're a wonderful selection.
    There are now reports coming out that the Highway Trust 
Fund will be out of money by, or short of money by 2008. Yet, 
Americans love to travel, and they particularly love their 
cars. We previously spoke of the I-5 Columbia River corridor 
that connects the States of Washington and Oregon, and the 
congestion is so bad there that by 2 in the afternoon it's a 
parking lot, and yet, it is a vital link for commerce and 
transportation in our country.
    So, obviously, I'm anxious to work with you and to learn of 
any ideas you have to help us to alleviate the congestion on 
our highways and how we're going to finance it.
    Ms. Peters. I'll look forward to that, sir.
    Senator Smith. I want to comment on the railroads. 
Obviously, part of alleviating congestion on our roads is 
investing in our rails. And the Federal Government has had a 
minimal role in investing in rails. On the Finance Committee we 
recently implemented a tax credit for the railroads to invest 
in rails, and we find, in the operation of that tax credit, 
that much of it was nullified by the AMT. The IRS is now coming 
out with a ruling further restricting it, and, therefore, 
frustrating the very unanimous--or near unanimous intent of 
Congress.
    Anything you can do to help us come up with ideas for how 
we can obtain more investment in rails, both cross-country and 
short line, would be appreciated. It is critical to relieve 
congestion on our highways and to increase efficiency in our 
transportation means.
    I would also throw in my support for Essential Air Service. 
Oregon has many rural places. It's a big state, geographically, 
and rural airports cannot be forgotten. I appreciate anything 
that you can do for those rural airports.
    And I look forward to working with you on these issues.
    [The prepared statement of Senator Smith follows:]

  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator from Oregon
    Congratulations on your nomination. You have an excellent track 
record on transportation issues, particularly road and highway issues. 
I look forward to working with you in solving our nation's 
transportation problems and developing Oregon's unique transportation 
projects.
    I have a great deal of interest in how this country is going to 
address the increasingly congested and over burdened transportation 
system. Our airports and airways are reaching their saturation point. 
There is concern the Aviation Trust Fund is running out of money and 
the aviation transportation infrastructure is outdated and overwhelmed.
    Our highways are experiencing unparalleled amounts of congestion. 
New construction projects can not keep up with demand. There are now 
estimates that the Highway Trust Fund will be out of money as early as 
2008.
    A perfect example of this congestion is the Interstate-5 Columbia 
River Crossing linking Oregon and Washington. Interstate-5 is a vital 
commercial link along the Pacific coast. In its current state, the 
congestion is so bad along this route that backups begin to occur at 2 
p.m. in the afternoon. This congestion is currently choking the region, 
restricting commerce along the corridor, costing our businesses extra 
money in time and fuel and frustrating drivers of all types.
    Our national transportation systems are reaching a critical point. 
I expect you to put forth the necessary leadership to address these 
problems and work with Congress to develop adequate, affordable, and 
common-sense solutions.
    There are a couple of issues I would like to raise. To begin with, 
I am concerned with the Essential Air Service to the rural airports in 
my state. In Fiscal Year 2007, the President's budget included a $59 
million reduction for this vital program, from $109 million to $50 
million. My hometown airport, Eastern Oregon Regional Airport in 
Pendleton, is a recipient of EAS funds. Such a cut would hurt these 
airports. I am aware that there have been efforts to change the funding 
formula for this program and I suggest you work with Congress to make 
the needed changes, these changes must be made without placing too much 
of the financial burden on these small communities.
    Oregon's medium-sized airports are expanding. Roberts Field in 
Redmond now services San Francisco, Salt Lake City, Denver, Los 
Angeles, Seattle, Eugene, and Portland. McNary Field in Salem has an 
opportunity to add jet service to Salt Lake City in the coming months. 
The airport has done an admirable job of improving its aviation 
capabilities and the Salem business community stepped up with a 
commitment of over $500,000 to expand the airport and make it suitable 
for a major carrier use. In order to address this increased demand, 
these airports must continue to expand to keep up with this expansion. 
I hope that we can work together to ensure these airports receive the 
support they need from the Department of Transportation.
    We are shipping more products today, using all modes of 
transportation, than ever before. As our economy continues to expand, 
transportation demands will only increase. Railroads are an efficient 
and safe means to transport goods, and a critical component of our 
national transportation system. It is important that our railroads have 
sufficient capacity to accommodate the shipping needs of our nation. 
Sufficient rail capacity is not only important to the rail industry but 
also to the overall health of our transportation system. Increasing 
capacity and shipping more products by rail will also alleviate 
congestion and strain caused by trucks on our Nation's highways. 
Although our railroads do not receive Federal funding similar to our 
highways, this mode of transportation is vital to our economy and our 
nation.
    Portland has a state-of-the-art light rail transit system. There 
are other communities, such as Denver, Salt Lake, and Phoenix that are 
passing local measures to match Federal funds for light and commuter 
rail. The Federal funds needed to construct these types of projects are 
going to have to grow to meet demand. I support these transit projects 
as they lead to a high return on investment to help remove cars from 
the roads, leading to less congestion and a cleaner environment. They 
are easy to use, safe, and clean. I am interested in hearing your 
thoughts on the expansion of these transit programs and how to fund 
these increasingly popular transit systems.
    Congratulations again on your nomination. I look forward to working 
with you to update and grow our nation's transportation infrastructure.

    Ms. Peters. Thank you, Senator.
    Senator Smith. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Smith.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. And greetings, 
Ms. Peters.
    It looks like you have made a lot of friends in your 
private discussions, and I, sort of, feel the same way, but 
I've got a couple of questions to ask.
    Ms. Peters. Absolutely.
    Senator Lautenberg. The fact of the matter is that, while 
we can't do much about the destruction that we get from extreme 
weather and other conditions beyond our control, we can do 
things to provide transportation. And I'd like to know that 
you're going to tackle all the problems that exist for every 
mode of transportation.
    And so, let me start. Mr. Chairman, you will have full 
opening statements in the record, I assume? Yes, he said.
    [Laughter.]
    Senator Lautenberg. Mr. Chairman, you didn't object, right? 
OK.
    [Laughter.]
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey

    Mr. Chairman, thank you for holding today's hearing.
    Like electricity and water, we need and expect our transportation 
systems to work. Trains must run. Planes must fly. Roads must be paved. 
Our personal livelihood and national economy depend on it.
    If confirmed, we will look to Ms. Peters, to keep our system 
running as Secretary of Transportation. With, freight cargo doubling, 
our skies getting more crowded and cars and trucks stuck in congestion 
on highways across America, you will have much to do to keep our 
country moving. If Ms. Peters takes the helm at the Department of 
Transportation, I hope she will focus on passenger rail.
    This committee developed legislation to grow our nation's rail 
infrastructure for high-speed corridor service--and provide $11.4 
billion over 6 years to reauthorize Amtrak. Senator Lott and I hope to 
debate that bill on the floor soon. The Amtrak bill will help bring 
balance to our nation's transportation system. This year alone, we will 
spend more on highways than we have in the last thirty-five years on 
passenger rail.
    Another area of concern is aviation. As you know, Conair Flight 
5191 crashed in Kentucky. Forty-nine people were killed. Only one air 
traffic controller was on duty--contrary to Federal Aviation 
Administration policy. We already have 1,081 fewer controllers in our 
towers than we did 3 years ago--and seventy percent of those 
controllers can retire by 2011.
    These are difficult problems, and I look forward to questioning Ms. 
Peters.
    Thank you, Mr. Chairman.

    Senator Lautenberg. You certainly have experience on the 
highway side of things, but future transportation needs of our 
country will not be met by highways alone. I've met with 
officials from the freight rail industry. And, you know, I'm 
very concerned about Amtrak, and listen with interest as other 
Senators from other parts of the country beside the Northeast 
have shown today a serious interest in seeing that Amtrak 
continues to operate and appropriate investments are being made 
to bring it up to date. This year, we're going to celebrate the 
35th anniversary of Amtrak. But the budgets tell us the true 
story, that in a single year we spend more on highways than 
we've spent on Amtrak improvement over the last 35 years. And 
we just can't continue like that.
    It was noted that the skies are going to be fuller with the 
advent of the light jets. Right now we're trying to find room 
in our national airspace for all the flights that we have--by 
reducing separations and limiting flights at certain airports. 
But I also note that there are shortages of air traffic 
controllers. At Newark, for instance, Federal Aviation 
Administrator Blakey has said we need 35 controllers for safe 
operations, but we're 15 percent short. And so, we have to 
continue to see that that population is built relative to the 
need.
    Ms. Peters, do you see a role for rail service as part of a 
security measure dealing with emergencies like 9/11 or the 
hurricanes, like Katrina? Do you see rail as an essential part 
of that structure that helps us deal with these emergencies?
    Ms. Peters. Well, Senator, I also agree that we need a 
national passenger rail system. And I certainly, to respond to 
your specific question, see a role for passenger trains, in 
terms of evacuating areas. In fact, part of the emergency 
response that is in place in the post-Katrina situation for the 
Gulf Coast area is to use Amtrak to help evacuate people from 
that area, should another hurricane come into the area.
    Senator Lautenberg. I have a letter that you sent to 
Senator Kyl. It goes back a few years, but it is about the 
safety concerns with heavier, longer trucks. You wrote 
``rollovers and jack-knifings by trucks already''--this was, 
again 7 years ago--``already a problem on our interstates and 
our highways. In addition to safety consequences, we're 
reminded about the effect of additional weights on our highway 
facilities, especially bridges.'' Do you still maintain that 
view?
    Ms. Peters. Senator, I do. I think safety has to be a 
predominant consideration, and certainly the wear and tear on 
our roads. If confirmed, I would look forward to discussing 
that issue with you. There are circumstances where we could 
perhaps define situations where longer and heavier trucks could 
be safe, but I share your concern about making sure that safety 
is always first in this issue.
    Senator Lautenberg. The principal thing for us is to make 
sure that we have this balanced highway system. And so, we've 
discussed shortages in FAA controllers, the search for more 
capacity in the airspace, on the freight rail lines, and 
dealing with the congestion and pollution that we now get from 
jammed highways. So, we have little choice. Senator Lott and I 
have a bill that's sponsored by many of our friends here to get 
Amtrak the Federal funding that would permit it to operate 
without having to go out there with a tin cup every time they 
need something. So, I'm hoping, Ms. Peters, that you will join 
us in that quest to make sure that Amtrak gets the investment 
that it needs to bring our country's passenger railroad up to 
date.
    Ms. Peters. Senator, I look forward to working with you.
    Senator Lautenberg. Thanks.
    Mr. Chairman, are we going to have another 5-minute round?
    The Chairman. Yes.
    Senator Lautenberg. Thank you.
    The Chairman. Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Ms. Peters, thank you for being here before the Committee 
today.
    Let me ask a couple of questions about trucking security. 
Last week, the Senate passed the port security bill, and it had 
some trucking security provisions in there to clarify authority 
and responsibility when it comes to fraudulent CDLs, state and 
local law enforcement, those type issues. I've noticed, in some 
of my reading, that the FMCSA is considering a pilot program to 
allow some long-haul Mexico-domiciled motor carriers to operate 
throughout the United States. Do you know anything about that?
    Ms. Peters. Sir, I have also heard that, Senator. And I 
have asked the question. And there are no immediate plans to do 
so.
    Senator Pryor. OK. I'd--if there are plans, I'd be curious 
about what statutory authority there is to do that. Do you know 
what statute might give the agency that authority?
    Ms. Peters. Sir, I do not. And I understand your concern 
about the issue, and, if confirmed, would look forward to 
getting to the bottom of the so-called rumors and addressing 
the issue.
    Senator Pryor. I'd say this, that--and I look forward to 
working with you on this, but I would say this, that if DOT is 
planning on moving forward, the kinds of things I would want to 
know is, what legal authority is there? And then I would want 
to know, is there some sort of agreement with Mexico to allow 
U.S. safety inspectors and auditors to look at the trucks? Do 
they have to meet the same requirements that U.S.-domiciled 
carriers have to meet? Would they have to pay all the same 
fees, the various registration, fuel taxes, those kind of 
things? Would they have to do the international registration 
plan, the IRP, and the internal fuel tax agreement? Would they 
have to comply with all the same rules and regs that the U.S. 
carriers would have to? So, as you look at that, I would very 
much appreciate having a dialogue with your Department and 
those agencies as that is being developed.
    And the other thing I wanted to touch on, something you and 
I talked about several days ago, is the real infrastructure 
needs that we have in this country. I mean, we just talked 
about trucking. Obviously, our highways are overcrowded. We all 
know that in the trucking industry there's a driver shortage 
right now. But you look at our railway system, it's about at 
capacity in many places. Air Traffic Control Systems are 
outdated. We've not done a great job of upgrading and 
maintaining our locks and dams on our rivers. You know, we can 
go through a long list of our needs. And I know part of your 
responsibility is to try to address all those things. And I 
know you've given that a lot of thought. But let me just ask my 
question, then I'll let you answer.
    In some of my reading, I read where you said that we can't 
depend on the Federal Government to bring the money in, that it 
was around--that was around when the interstate system was 
first built. And I guess my question is, what does that mean? 
When you say, ``We can't depend on the Federal Government to 
have that same kind of money when the interstate system was 
first built,'' what does that mean? That sounds like toll 
roads, to me, but I'm curious to hear your response on how you 
think the Federal Government will--or we, as a Nation--will pay 
for these transportation needs that we have.
    Ms. Peters. Sir, the basis of the remark was the fact that 
the gas tax system which was put in place to finance the 
interstate system is likely not going to be viable to help meet 
all of our nation's transportation system needs in the future, 
because of the greater incidence of hybrid or alternatively 
fueled vehicles coming into the fleet, which is a very good 
thing, in terms of air quality and other issues. So, the basis 
of my remark was that we have to look beyond those traditional 
methods of funding infrastructure to look for new and 
innovative ways to bring a diversified set of funds to bear to 
meet our nation's transportation needs.
    Senator Pryor. Does--would that include toll roads?
    Ms. Peters. It could very well, sir, yes.
    Senator Pryor. Would that include toll roads on existing 
highways, or just on new construction?
    Ms. Peters. Sir, I believe that the intent right now is 
only on new construction or improvement construction, but those 
are decisions, as was mentioned by one of your colleagues, that 
I think are better made, in most cases, by state and local 
governments. However, the Federal Government certainly has an 
interest, especially in our interstate system, in ensuring that 
that system continues to serve all Americans, and, importantly, 
serve commerce needs throughout the United States. So, it is an 
issue that I would look forward, if confirmed, sir, to 
discussing more with you and learning more about your position 
on the issue.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    I welcome you, Administrator Peters. And you certainly come 
with, you know, the highest level of commendation with respect 
to your past accomplishments and experience, so I'm very 
pleased that you'll become the next Secretary of Transportation 
because of your breadth of expertise in the areas that are 
going to be so critical to the future.
    I know some of my other colleagues on the Committee have 
already referenced it, and I'm very pleased as well that we had 
the opportunity to meet recently on some of the issues that I 
consider to be critical, certainly to my State of Maine, as 
also to, I think, the national transportation policy. But 
obviously as we look to the future, one of the concerns that I 
had, and I've expressed, is making sure that, you know, rural 
states like Maine are not forgotten in the overall 
transportation policy.
    First of all, as I mentioned to you about Amtrak--and we 
were fortunate to be one of the last states to have the benefit 
of an extension of Amtrak from Boston to Portland, and it's 
extremely successful, has a 92-percent, you know, customer 
satisfaction rate, because of the outstanding services provided 
to the people of Maine and the vicinity. It's worked 
exceedingly well, so much so that we're looking to extend it 
even further up into the State. It's heavily utilized. It's one 
of the most successful routes--second-highest revenue routes in 
the country. So, I think that there's no question this bodes 
well for the future.
    And one of the reasons for its success, as I mentioned to 
you, was the Federal waiver that was granted to the State to 
use the Congestion Mitigation and Air Quality funds for that 
purpose, and that will expire in 2009. Can you state for this 
committee what your views are with respect to the use--the 
flexibility using Federal transportation funds for this 
purpose? Because that certainly has contributed to the success 
for the Downeaster, the extension of Amtrak to Maine, and 
certainly will in the future, and if--particularly if we want 
to extend that service even further up because it's so heavily 
utilized by the people in New England, in my state.
    Ms. Peters. Senator, as a former state transportation 
administrator, I very much encourage the exercise of local 
discretion to use funding that is allocated to states, such as 
Maine has done, to help support the Amtrak operation. In fact, 
in terms of having a viable national transportation--rail 
transportation system, I think having that kind of flexibility, 
and state participation and involvement, will be essential in 
the future.
    Senator Snowe. Well, I appreciate that, because I think 
that it is--I think it's going to be critical. You know, I 
happen to believe in--and I gather you share that belief, as 
well--that it is essential that the Federal Government play a 
role in creating a strong national rail system. It is 
absolutely essential that we have one, and one that--obviously, 
that's going to provide--that's going to have the benefit of 
Federal support. You know, hopefully we can move, you know, 
further and further away from, you know, huge Federal 
subsidies. I mean, that's obviously what we have striven for in 
this committee over the years. But, nevertheless, I think it's 
so vital and central to our overall transportation policy.
    Second, on aviation, rural aviation--and, again, I know my 
colleagues have raised this issue, but I do think it is 
paramount--and that is, of course, regional airports, such as 
those that exist in Maine, or Essential Air Service communities 
that depend upon the Essential Air Service, you know, funding. 
And one, of course, is the fact that--first, referring to the 
operational evaluation plan--it seems that much of the focus in 
the past of--by these plans--and certainly the most recent, 
focused on the large hub airports--understandably so, because 
of the congestion that exists at these hub airports. But, on 
the other hand, what concerns me is what is occurring in, you 
know, my state with the small regional airports, is that we're, 
you know, losing--a loss of seats and overall--both in terms of 
flights and seats in passenger service--there's no question 
that our airports have been very hard hit over the years, and 
yet it's pivotal and central to economic development.
    So, I would like to get your views--one, in terms of 
examining, you know, how you incorporate, you know, regional 
airports and those that serve the rural states of this country, 
in the overall plans for the future.
    Ms. Peters. Senator Snowe, I do think it's essential to 
have air service into our rural areas. You know, it's been over 
25 years since deregulation of the aviation industry, and we--
we need, I think, to look again at how the service is working, 
and look at the situations that you describe, and determine 
where it's most appropriate to provide assistance to those 
airports.
    Having come from a state, also, with a large amount of 
rural area, I do appreciate how important those regional 
airports are, and think they have to be part of the complement 
of transportation services in the future.
    Senator Snowe. Well, I appreciate that. And I hope you will 
give that consideration, since they play a premier role in the 
development of our economies, as does the Essential Air Service 
program that--you know, Maine is one of the--other than four 
other states, we're the largest beneficiaries of that program. 
It's absolutely vital to ensure that those airports receive 
that service.
    I'm also concerned about the Administration's proposed, you 
know, community cost-sharing between the Federal Government--in 
some cases as much as 80/20. It's something that we have 
rejected in the past, and certainly, hopefully, will do so in 
the future, because I think that places an inordinate burden on 
those communities that depend on the EAS program. But in--it's 
obvious it's going to have a paramount impact on them if they 
have to--if they have to provide for the cost-sharing and they 
see a reduction in the overall program, which--the 
Administration has submitted, you know, a program and a budget 
for that, for less than, I think, half of what exists today.
    Ms. Peters. Senator, I absolutely understand your concerns 
in that area and would be happy to get more information, should 
I be confirmed, and follow up with you personally on that.
    Senator Snowe. I appreciate that. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Peters, I'm told that while you were reading your 
opening statement this committee finally received clearance to 
seek unanimous consent to pass the National Transportation 
Safety Board reauthorization bill. Aviation safety is one of 
our major concerns.
    In Alaska, I was alarmed when I found that one out of 11 
pilots were being killed in aircraft accidents, and we have the 
highest number of pilots per capita in the country. We 
developed what we called the Five Star Medallion Program, with 
the help of the Department of Commerce and FAA, and we have 
reduced significantly pilot deaths and increased safety in our 
state.
    I want to know if you're willing to come up and take a look 
at that program and study it to see if it couldn't be 
replicated throughout the United States, particularly the rural 
areas of the United States.
    Ms. Peters. Mr. Chairman, it sounds like an exemplary 
program, and one I would be very pleased to come to Alaska to 
review.
    The Chairman. I look forward to showing you a little bit of 
my marine research capabilities, too.
    [Laughter.]
    Ms. Peters. Ah. I'll look forward to that, sir.
    The Chairman. I want to get back to the whole problem of 
financing. As other Senators have said, FAA will be 
reauthorized next year. And we've had hearings now on aviation 
investment needs. And I think we're going to have to have a 
major session with the aviation communities in order to try and 
develop a plan. We need a financing option that pulls in both 
the increased needs, in terms of investment, and the 
transformation to the next-generation air transport system. I 
do hope that that is something that you will help us on. As a 
matter of fact, we have one of your people here on this 
committee as a fellow for a year to help find ways that we can 
work together on that issue.
    I've not talked about highway issues. We all know your 
background is in highways. And so, all I can say is, is that we 
have an increasing number of fatalities on our highways. I 
think if we can't reverse that any other way, we're going to 
have to restore the speed limits on interstate highways. We 
have to find some way to reduce those deaths.
    Ms. Peters. Yes.
    The Chairman. And each year they're going up. So, I would 
hope that we would have a chance also to work with you on that, 
particularly with regard to the fatalities on our interstate 
highways.
    Ms. Peters. Mr. Chairman, you have my commitment to do so. 
There is no higher priority at USDOT than reducing the number 
of deaths and injuries that occur on our nation's highways 
every year.
    The Chairman. Yes. I was appalled at some of the statistics 
I saw today as we prepared for this hearing, and that is an 
alarming rate of increase.
    Let me now turn to Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Ms. Peters, you struck a note of alarm with me, which 
passed because I ran out of time, but to say that you were 
looking at the opportunity in--for areas where truck size and 
weight standards could be changed, so long as it's done safely. 
Now, if I look at your letter that I mentioned before, when you 
were with the Arizona Department of Transportation, you talked 
about the damage that results from heavier weights in the 
trucks. And here, you're telling us--and we're laggard by 
billions and billions of dollars in repairing bridges. We have 
lots of functionally obsolete bridges across the country. And I 
hear you say you're looking for opportunities to increase truck 
weights--the size and the weights. Isn't that kind of a 
reversal of position? And, if so, please let me know, because 
that's not something that I would take to as a positive 
indication of where you want to go.
    Ms. Peters. Senator, please forgive me if I miscommunicated 
on that. What I was referring to is that some states are 
considering proposals for truck-only lanes, lanes where trucks 
might be segregated from the rest of the traffic, with deeper 
pavement depths, deeper pavements that would withstand the 
weight of a truck better. If traffic could be segregated as in 
those weight proposals--which some states are considering now--
that is what I was referring to. I was not referring to lifting 
the ``Longer Combination Vehicle'' freeze or the truck size and 
weight limits. The position that I took in that letter, back 7 
years ago to Senator Kyl, remains my position.
    Senator Lautenberg. OK. I just wanted to be sure that we're 
on the same truck length, as they say.
    And the matter of foreign ownership of our airlines, 
ownership and control, that's a matter of great concern to me, 
and to many of us. U.S. airlines are important national assets. 
And I'd be wary and resistant to the notion that we might turn 
over--let control be taken by foreign owners. I think it's a 
bad idea, for many reasons. But do you intend to--if you're 
confirmed, to pursue changes in the rules on foreign ownership 
of U.S. airlines?
    Ms. Peters. Senator, I certainly have heard your concerns, 
as well as those of many other Members of this committee, and 
of Congress, as well, and I do understand that there have been 
comments received by the Department on a supplemental notice of 
proposed rulemaking as it relates to the control of airlines. I 
commit to you that I will carefully review all of those 
comments, and review them with you, and talk with you, before 
the Department makes any decision on that issue.
    Senator Lautenberg. You're aware of the fact that there is 
a strong interest, in our region, to open up another rail 
tunnel under the Hudson River----
    Ms. Peters. Yes.
    Senator Lautenberg.--so that we can increase the capacity 
to allow enough trains to go through there. And I'd like to 
know that you will at least consider seriously the requests for 
help from you to make sure that we get going with that project. 
That's a project of national interest, even though the tunnel 
is between New York and New Jersey, because right now it is the 
biggest bottleneck on the entire Northeast Corridor from here 
to Boston. And so, can I have an indication of the fact that 
you're--that you understand the need for this tunnel and will 
be helpful to us as we pursue a way to get it done?
    Ms. Peters. Senator, certainly. I certainly appreciate the 
need for that tunnel, and have had an opportunity to work with 
my former colleagues, Jack Lettiere, as well as Joe Boardman, 
who are now in different positions, but have impressed upon me 
the need for transportation solutions in that area.
    Senator Lautenberg. Now, I don't want to ask any questions 
that might be interpreted as being on the personal side, but 
you're a motorcycle rider, are you not?
    Ms. Peters. Yes, sir, I am.
    Senator Lautenberg. Do you always wear a helmet?
    Ms. Peters. I never ride without a helmet, sir.
    Senator Lautenberg. I just wanted to be sure, because----
    [Laughter.]
    Senator Lautenberg.--everybody--I would buy you one, if you 
didn't have one.
    [Laughter.]
    Senator Lautenberg. Because I had a ski accident a couple 
of years ago on my skis. The helmet that I was wearing was 2 
days old, and I've been skiing 60 years, and it virtually saved 
my life. I had to go in for emergency surgery as a result of 
that.
    That was for foolishness, Mr. Chairman.
    [Laughter.]
    Senator Lautenberg. Thank you very much, Ms. Peters. I look 
forward to working with you.
    Ms. Peters. Thank you, Senator.
    The Chairman. A bike rider, huh?
    Ms. Peters. Yes, sir, an avid motorcyclist. In fact, I own 
two.
    The Chairman. You've got another one down there at the 
White House, in Josh Bolten. Now we understand why you move so 
quickly.
    [Laughter.]
    The Chairman. We thank you very much. As I said, there are 
some absent Senators and we have agreed that they will have 
until 10 o'clock tomorrow morning to file questions. As soon as 
those answers are received, we will move to consider reporting 
your nomination to the floor, in a meeting held in the 
President's Room off the floor. I cannot tell you exactly when 
that time will be. It depends on how long it takes you to 
answer those questions.
    We do thank you very much for your appearance today, and I 
think you've been very frank to all these people. You've made 
some promises that I'm not sure you can keep, but that's all 
right.
    [Laughter.]
    Senator Lautenberg. I'll be hanging over there, Mr. 
Chairman.
    The Chairman. I understand. We do have a fairly bipartisan 
approach to many issues, particularly in transportation here in 
this committee. I look forward to working with you, along with 
our Co-Chairman and members on both sides of the aisle. You 
have a grand assignment. It's a very difficult one. We wish you 
very well.
    Ms. Peters. Thank you so much, sir.
    The Chairman. Thank you. The Committee is adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of George Chilson, President, National Association 
                         of Railroad Passengers

    I commend the Bush Administration for nominating Mary Peters to 
lead USDOT. Her comprehensive vision of transportation makes her an 
excellent choice.
    I had the pleasure of working with her when she was director of the 
Arizona Department of Transportation. I found her to be smart, creative 
and action oriented as well as open-minded and willing to listen. I was 
most impressed by the fact that she had a strong belief in multi-modal 
transportation.
    I believe she understands that rail will become an increasingly 
important component of our transportation system as we confront the 
dual challenges of intractable congestion and rising oil prices. Rail 
represents a strategic solution that will help preserve America's 
mobility, quality of life and competitive position in a global economy 
as we adapt to new realities.
    If confirmed as Secretary of Transportation by the Senate, she will 
have an important opportunity to broaden the scope of Federal 
transportation policy beyond its traditional emphasis on highway & air 
transportation. Her talent for finding common ground among competing 
and diverse interests makes such an important change possible.
    There is increasing recognition that public investment in rail 
infrastructure is essential just for freight railroads to maintain 
their existing market-share, much less increase it as most Americans 
including DOT officials would like. Maintenance and growth of rail's 
market share is critical for maximizing safety, fluidity and energy 
efficiency of our national transportation system, and for minimizing 
that system's environmental impacts.
    The Alameda Corridor in southern California and the CREATE project 
in Chicago are happy exceptions to an overall pattern of Federal non-
involvement in rail infrastructure investment. Railroad trackage in the 
New Orleans area has needs similar to those in Chicago. One of Ms. 
Peters' challenges will be to make critical investments in rail the 
rule rather than the exception. We look forward to working with her on 
this.
    If Ms. Peters succeeds in finding ways that incorporate rail within 
the scope of Federal transportation policy and planning--as I believe 
she will--her appointment will prove to be a transforming event that 
will serve the American people well for generations to come.
    NARP urges speedy confirmation of Ms. Peters and looks forward to a 
productive dialogue with her about the future of passenger rail in 
America. Thank you for considering our views.

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Hon. Mary E. Peters

General
    Question 1. What do you believe are the significant challenges 
facing the U.S. transportation system? Do you believe that the 
Department of Transportation is doing all that is necessary to prepare 
the Nation for the transportation challenges ahead?
    Answer. The most significant challenges facing the U.S. 
transportation system are safety, system reliability, and the 
uncertainty of future funding sources. I believe that the Department is 
confronting each of these issues head-on, and if confirmed, my goal 
will be to make significant advances in each area during my tenure.

    Question 2. The Department of Transportation is a collection of 
stove-piped modal agencies, with modal-specific programs and 
responsibilities. Do you believe this structure restricts the ability 
of the Department to address the needs of our multi-modal 
transportation system?
    Answer. While it is true that the Department's modal 
administrations were established with specific programs and 
responsibilities, I believe the Department can and will continue to 
evolve to meet the Nation's transportation and economic needs by 
building links across those administrations to address new developments 
in safety, multimodal travel, and international transportation Breaking 
down traditional stovepipes was an important goal of Secretary Mineta's 
and one that I also intend to embrace if confirmed.
Amtrak
    Question 3. As Secretary, you will have a position on Amtrak's 
Board. Will you regularly attend the Board meetings or do you plan to 
have a designee attend on your behalf?
    Answer. If confirmed, I intend to appoint Federal Railroad 
Administrator Joseph Boardman as my designee on the Amtrak Board, and 
will remain informed of the issues before the Board.

    Question 4. What is your personal vision for the future of 
intercity passenger rail in the Nation?
    Answer. I support a national rail passenger system. I believe the 
system must be operated on a sustainable business model and deliver 
maximum benefits to consumers while recognizing the need to invest the 
taxpayers' money wisely.

    Question 5. Do you agree with the Administration's Amtrak 
reauthorization proposal and previous suggestions that Amtrak should be 
reformed through bankruptcy?
    Answer. I support the Administration's desire to have a national 
rail passenger system that is driven by sound economics. I do not 
believe that bankruptcy should be the preferred route to reform.

    Question 6. Do you believe that multi-year, dedicated funding is a 
critical aspect of the Federal highway, transit, and aviation programs? 
Should such multi-year and dedicated Federal funding exist for major 
intercity passenger rail capital projects for use by Amtrak or the 
states? If so, what should be the funding sources and how should the 
funding be distributed? If not, why is Federal multiyear, dedicated 
funding not appropriate for major passenger rail capital projects?
    Answer. I will support dedicated funding for a national passenger 
rail system that is operating on a sustainable business model. I 
believe that multi-year funding should be established through a 
reauthorization and if confirmed, I look forward to working with 
Congress to pass such legislation. I am sure the structure and source 
of such funding will be the subject of a lively debate and I look 
forward to discussing that issue with Congress and the stakeholder 
community.

    Question 7. What is your personal opinion of S. 1516, the Passenger 
Rail Investment and Improvement Act of 2005?
    Answer. I have not had the opportunity to study S. 1516 in great 
detail. However, I do support a national rail passenger system, and I 
understand S. 1516 incorporates a number of key reforms. If confirmed, 
I look forward to working with you and your colleagues to pass a long-
term reauthorization to end the annual funding crisis that Amtrak has 
operated under for too many years now.

    Question 8. According to Amtrak data, three Amtrak lines--the 
California Zephyr (Oakland, CA to Chicago, IL), the Coast Starlight 
(Seattle, WA to Los Angeles, CA), and the Sunset Limited (Los Angeles, 
CA to New Orleans, LA) --were more than 4 hours late over 50 percent of 
the time in the month of June. This has been the case for the Coast 
Starlight for the entire Fiscal Year (since October 1, 2005). As 
Secretary, will you commit to reviewing this situation, determining the 
causes of delays, and help to ensure that Amtrak's passenger trains are 
not unnecessarily delayed?
    Answer. The success of a national rail passenger system is 
predicated on on-time, quality service. Amtrak cannot be successful if 
its trains continue to run late. I recognize that this is an area that 
Amtrak and the freight railroads, which control the right-of-way over 
which Amtrak operates, must address and I commit that the Department 
will be engaged on this issue if I am confirmed.
Motor Carrier Safety
    Question 9. In 1999, the Federal Motor Carrier Safety 
Administration (FMCSA) set a goal of reducing truck fatalities by 50 
percent by 2008, but it does not appear likely that this goal will be 
achieved under present conditions. Truck fatalities increased from 
5,190 in 2004 to 5,226 in 2005. What would be your first actions as 
Secretary to reduce motor carrier crash deaths and injuries? What can 
the Congress do to make the most immediate improvements in truck 
safety?
    Answer. If confirmed, safety would continue to be the Department's 
top priority. Congress, by passing SAFETEA-LU, has equipped the 
Department with additional tools to prevent truck deaths and injuries 
and one of my first actions as Secretary would be to ensure that FMCSA 
aggressively implements the relevant provisions of that legislation.

    Question 10. FMCSA is preparing a rulemaking on the installation of 
Electronic On-Board Recorders (EOBR) to verify driver hours of service 
regulation compliance. When will this rule be released?
    Answer. If confirmed, I will review the Electronic On-Board 
Recorder (EOBR) NPRM and work with FMCSA to expedite the rulemaking 
process.

    Question 11. FMCSA has suffered the embarrassment of having had two 
of its major rules, one on commercial driver hours of service limits 
and the other on minimum training requirements for entry-level 
commercial motor vehicle operators, overturned by the U.S. Court of 
Appeals. Consumer, health and safety groups have sued the agency again 
on the Hours of Service rule because FMCSA essentially re-issued the 
identical rule overturned by the Court. How would you approach this 
rule if it should once again be thrown out by the Court?
    Answer. If confirmed, I will always consider input from stakeholder 
groups on existing and proposed regulations, while at the same time 
ensuring that safety remains the Department's first priority. On the 
hours of service suit in particular, I will respectfully refrain from 
commenting while a judicial decision is pending.
Federal Railroad Administration (FRA)
    Question 12. Do you support the Railroad Rehabilitation and 
Infrastructure Financing Program that was expanded in the SAFETEA-LU 
legislation?
    Answer. If confirmed, I assure you that the Federal Railroad 
Administration (FRA) will continue to implement the law.

    Question 13. Are you supportive of Federal financing for freight 
railroad projects that have significant national public benefits?
    Answer. I recognize that our freight rail infrastructure needs to 
be upgraded and that there may be specific areas where public funds are 
justifiable, such as those that involve highway-grade crossing 
separation and highway congestion relief The Chicago Region 
Environmental and Transportation Efficiency Program is a good example 
of a potential public-private partnership that can yield numerous 
public benefits. I look forward to meeting with the railroads to better 
understand their capital investment needs, and am also interested in 
exploring potential tax credits for rail infrastructure development.

    Question 14. The Federal rail safety program authorizations have 
been expired since 1998 and the Department has not put forward a 
reauthorization proposal for rail safety since 2003. As Secretary, will 
you push the Department to release a rail safety reauthorization 
proposal?
    Answer. I am aware that DOT launched the National Rail Safety 
Action Plan last year, which was issued in response to several major 
accidents. However, DOT must do even more to reduce the number of train 
accidents, including those that involve highway-rail grade crossings, 
and this means enhancing rail safety throughout the industry. If 
confirmed, rail safety will be a major focus of mine and I will work 
with Administrator Boardman to determine how best to accomplish the 
Department's rail safety priorities.

    Question 15. One of the National Transportation Safety Board's 
``Most Wanted'' recommendations is to require the equipping of mainline 
railroads with Positive Train Control (PTC) technology. Do you believe 
that freight railroads should be required to implement this safety 
technology as its effectiveness and availability increases?
    Answer. If confirmed, I will ensure that the Federal Railroad 
Administration continues to work with industry to implement new 
technologies that will create a safer rail system; however, I do not 
know enough about this technology at this time to say it should be 
required for all railroads. If confirmed I will ask Administrator 
Boardman to brief me and will consult with industry stakeholders and my 
colleagues at the NTSB.

    Question 16. Some rail carriers have proposed voluntarily 
installing PTC systems on their railroad, but only if they could 
operate certain trains over such systems with a single crew member. As 
Secretary, would you commit to ensuring that the safety aspects of any 
such single-person crew operations were thoroughly evaluated before 
such operations commenced?
    Answer. DOT's core mission is safety. I assure you that no decision 
will be made on any issue until its impact on safety is fully 
addressed.

    Question 17. I joined Senator Lott in introducing a bill that would 
provide tax credits to freight railroads for infrastructure and 
capacity expansion. Do you support this approach? Do you believe 
Congress should look at something similar for promoting the development 
of passenger rail capacity and infrastructure?
    Answer. I recognize that the rail transportation network will need 
added capacity to meet the freight demands for the next several 
decades. I look forward to working with you and industry stakeholders 
to discuss ideas that could spur additional investment in rail 
infrastructure.
Highways
    Question 18. Are there circumstances under which the new tolling of 
existing interstates might be appropriate?
    Answer. Under current law, there is limited authorization to do so 
under the Interstate Toll Reconstruction and Rehabilitation Toll Pilot 
and the Value Pricing Program. I support states' having this 
flexibility to finance important reconstruction and rehabilitation of 
their Interstate routes and to manage congestion.

    Question 19. In your nomination hearing, you mentioned that the gas 
tax is unlikely to be a sufficient source of Federal funds for surface 
transportation improvements in the future. What other sources of 
revenue do you believe the Congress should consider? Is moving to a 
mileage-based use tax for automobiles and motor carriers, given the new 
technologies that are available, an option?
    Answer. I believe that we need to explore any number of innovative 
financing mechanisms. For example, a 2005 special report from the 
Transportation Research Board recommends expanded use of tolling and 
road use metering (as your question suggests) among other long-term 
alternatives for transportation funding. I believe we should explore 
all innovative possibilities that will allow us to maintain a vibrant 
and effective transportation system. I look forward to working with 
Congress and surface transportation stakeholders in this endeavor.

    Question 20. There are still significant restrictions on how states 
can use Federal transportation funds to enhance the mobility of people 
and goods in their regions. Do you believe that more flexibility needs 
to be provided to the states in their use of Federal funds so that they 
may invest in intercity rail and transit options that reduce road 
congestion, energy-use and protect the environment?
    Answer. While I understand that providing funds by program category 
enables Congress to target resources according to national needs and 
priorities, I believe it is important to provide states significant 
flexibility to transfer funds among programs in order to improve their 
ability to choose the best mix of solutions to meet their individual 
transportation needs. For example, programs like the Surface 
Transportation Program (STP) and the Congestion Mitigation and Air 
Quality Improvement Program (CMAQ) offer broad eligibilities for 
funding highway and transit projects.
    The National Surface Transportation Policy and Revenue Commission 
is currently examining future transportation program direction, as well 
as funding alternatives. If confirmed, I look forward to chairing the 
Commission and presenting programmatic recommendations to the Congress 
next year.

    Question 21. How will you as DOT Secretary implement the language 
in SAFETEA-LU that requires state and metropolitan transportation plans 
to ``accomplish'' the planning objectives set out in the preamble of 
the planning section of the law, to support mobility and economic 
development while minimizing fuel use and emissions? This provision in 
law is designed to ensure state and metro areas focus on considering 
options to boost transportation system performance to cut congestion 
while protecting our nation's energy security, and reducing greenhouse 
gas emissions and health-threatening air pollution. There is concern 
that the proposed DOT planning rule slated to be finalized in a few 
months failed to even mention that requirement. Will you, as Secretary, 
ensure the final DOT planning rule includes clear criteria for state 
and metro areas to demonstrate their compliance with this statutory 
requirement?
    Answer. As Administrator of the Federal Highway Administration, 
environmental stewardship and reducing congestion were priorities of 
the Federal Highway Administration (FHWA). I believe that these remain 
high priority goals of the FHWA as well as the Federal Transit 
Administration (FTA), and I will continue them as high priority goals, 
if I am confirmed as Secretary.
    SAFETEA-LU changed the transportation planning and transportation 
conformity process to more closely align the transportation and air 
quality planning horizons for purposes of transportation conformity, 
and to better integrate the transportation planning and air quality 
planning processes.
    If confirmed, I will work to ensure that, in air quality non-
attainment and maintenance areas, transportation plans and improvement 
programs demonstrate they conform to the air quality goals of state 
implementation plans through the transportation conformity process. 
This integration of transportation planning and air quality planning 
processes will ensure that the continued reduction of motor vehicle 
emissions and the improvement of air quality, while reducing 
congestion.

    Question 22. A growing number of cities--London, Oslo, Stockholm, 
Singapore, and others--have put congestion charges on existing roads to 
manage traffic and support expanded travel choices and better 
transportation, typically cutting congestion delay by a third, reducing 
pollution, and sharply boosting use of public transportation. On 
Sunday, voters in Stockholm, Sweden, affirmed their support to 
reinstate such a congestion charge on existing roads into and out of 
central Stockholm after a 6 month pilot project, again demonstrating 
the popular appeal of true traffic congestion relief strategies. The 
USDOT Congestion Initiative, advanced by Secretary Mineta in May 2006, 
has been promoting consideration of this promising performance-oriented 
transportation management strategy by major U.S. cities. What will you, 
as DOT Secretary, do to help encourage such initiatives that might 
deliver real relief from traffic problems?
    Answer. If confirmed, I will continue to carry this important 
initiative forward, as I share Secretary Mineta's concern about 
congestion on our highways, railways, airports and seaports--and the 
staggering costs this congestion imposes on families and businesses.
    I believe there is much that the United States and U.S. cities can 
learn from Stockholm's congestion pricing demonstration, and we will 
continue to watch the results closely as Stockholm implements a more 
permanent pricing system. It's my understanding that several American 
cities are very interested in what Stockholm accomplished during the 
demonstration and the positive effects that pricing have had on 
congestion and the environment.
    The Department's National Strategy to Reduce Congestion on 
America's Transportation Network offers incentives to a state, city, 
county or locality that can commit to a broad congestion pricing or 
variable toll demonstration similar to Stockholm. If confirmed, I will 
continue to reach out to Congress, our state DOTs, Governors, and 
municipal leaders to educate them on congestion reducing strategies.

    Question 23. You are a big supporter of public-private partnerships 
(PPPs) in transportation. These have been used in the U.S. to date 
largely to extract cash up front from existing publicly-owned toll 
roads and to attract private investment to build new roads faster than 
they could be delivered by the public sector. Some have raised concerns 
that this may not produce cost-effective congestion relief, but could 
leave behind an increasingly dysfunctional network of existing roads. 
Pat DeCorla-Souza, a senior staff person at the Federal Highway 
Administration and Michael Replogle at Environmental Defense have 
recently suggested that public agencies use PPPs to contract directly 
for performance, inviting concessionaires first to better operate and 
manage existing corridors, rewarding them based on the number of people 
and amount of freight moved without congestion while meeting 
environmental performance standards. Will you, as DOT Secretary, help 
encourage wider consideration and use of these innovative approaches 
and a ``fix-it-first'' approach to PPPs?
    Answer. I am a supporter of public-private partnerships (PPPs). 
Although the financial aspects of PPPs are most commonly discussed, we 
use the term ``public-private partnership'' more broadly to refer to 
contractual agreements between a public agency and private sector 
entity that allow for greater private sector participation in the 
delivery of transportation projects. There are opportunities for the 
private sector in the operation, maintenance, and management of a 
highway facility or corridor, beyond existing toll road concessions and 
building new roads faster and cheaper. In these cases, it is possible 
to structure contracts so that contractors are paid on a fixed fee 
basis or on an incentive basis, where they receive premiums for meeting 
specified service levels or performance targets. If confirmed as 
Secretary, I will encourage wider consideration and more innovative 
approaches to partnering with the private sector in appropriate 
circumstances.

    Question 24. FHWA has apparently determined that Tribal Governments 
are not eligible to apply for the Safe Routes to School program, 
stating that ``Since Congress did not specifically list federally-
recognized Indian tribal governments as eligible grant recipients, 
state DOTs may and should find another means for reaching this 
important constituency.'' Some believe that FHWA has the latitude to 
make grants directly to Tribal Governments, but has chosen instead to 
interpret the statute very narrowly. Do you agree with this 
interpretation?
    Answer. Coming from a state with a large tribal population, I am 
sensitive to the needs of this important constituency; however, I am 
not familiar with the FHWA's interpretation of this provision of 
SAFETEA-LU. I understand that the Senate Environment and Public Works 
Committee recently included in its technical corrections bill a 
provision for making Indian tribal governments eligible grants 
recipients under the Safe Routes to School program, and if confirmed I 
would support that provision.

    Question 25. The DOT has found, through its Highway Cost Allocation 
Study, that certain trucks operating on our interstate system do not 
cover the costs related to the damage they cause to highway 
infrastructure through the various excise taxes paid by motor carriers, 
thus resulting in a subsidy which skews the freight transportation 
marketplace. As Secretary, what will you position be on subsidies such 
as these that advantage one transportation mode over another?
    Answer. I believe that user fees should recover costs imposed by 
the user on the transportation system. This principle should be applied 
to all users and all modes of transportation to ensure the efficient 
allocation of infrastructure investment. On the highway side, the 
Department is studying alternatives to the Federal fuel tax that better 
reflect a vehicle's actual use of highway resources, rather than the 
amount of fuel it consumes. These alternatives include mileage-based 
fees that can be varied to reflect the number of axles and weight of 
the vehicle, the functional class where the vehicle is operated and the 
volume-to-capacity operating condition of the roadway. I understand 
that the Department is also currently conducting an update of the 1997 
cost study, to provide a more recent context for analysis of user fees 
relative to cost responsibility.
Transit
    Question 26. I understand that you have been a strong proponent of 
private investment in public infrastructure. Clearly, there are some 
public infrastructure projects, such as public transit systems, that 
have a limited ability to attract private investment. Will you, as 
Secretary, be requiring transit applicants for Federal funds to first 
seek private investment in their project before approving a grant for 
Federal funds?
    Answer. No. With public funding--whether it be Federal or state or 
local--becoming increasingly scarce, I believe we must begin to 
consider innovative financing ideas, for all modes of transportation, 
including transit. However, I have no plans to require transit 
applicants to seek initial private investment.
Maritime
    Question 27. The Nation's port facilities are facing record growth. 
The DOT has apparently prepared a ``SEA-21'' port infrastructure 
proposal, but this has been held up by the Office of Management and 
Budget (OMB) and has never been publicly released. What are your views 
on the status of the Nation's existing port infrastructure and its 
capacity to meet the growing throughput demand as international 
commerce continues to expand? Will you push to have the ``SEA-21'' 
proposal released?
    Answer. Like most of our nation's infrastructure, our ports are 
increasingly congested and are at or nearing capacity. Congestion is 
one of the single largest threats to our economic prosperity and way of 
life. The Department is working to address this serious problem through 
its National Strategy to Reduce Congestion on America's Transportation 
Network announced in May 2006 by Secretary Mineta. Through this 
initiative, the Department is using its resources and expertise to help 
its partners at the state and local levels use their existing 
transportation networks better and to add capacity where it makes the 
most sense, and develop better policy choices to reduce congestion. As 
Federal Highway Administrator, I was not involved in the development of 
the SEA-21 proposal and was not aware of where it was (or is) in the 
process. However, if confirmed, I will work closely with Administrator 
Connaughton and Congress to determine how best to address our nation's 
maritime needs, including moving forward with a legislative proposal.

    Question 28. Do you fully support the Jones Act and the related 
cabotage laws like the Passenger Vessel Services Act? If so, how do you 
intend to ensure the protection and expansion of the U.S. maritime 
fleet both domestically and internationally?
    Answer. I fully support the Jones Act and related cabotage laws. If 
confirmed, I will work closely with Administrator Connaughton to ensure 
that both the spirit and the letter of such laws are adhered to in 
order to ensure the continued vitality of the U.S.-flagged fleet.
Aviation
    Question 29. Do you agree that the Secretary of Transportation is 
required to consider several objectives as being in the public 
interest, including: keeping available a variety of adequate, economic, 
efficient, and low-priced air services; encouraging, developing, and 
maintaining an air transportation system relying on actual and 
potential competition, and; encouraging entry into air transportation 
markets by new and existing air carriers and the continued 
strengthening of small air carriers to ensure a more effective and 
competitive airline industry?
    Answer. Yes, I agree with these objectives.

    Question 30. While it appears the DOT has opted not to move forward 
on the issue of foreign control of U.S. air carriers prior to this 
year's elections, there have been indications that the Administration 
intends to fmalize a deal on this matter before the end of the year. Do 
you support a year-end timeline for permitting foreign ownership 
despite the clear objections raised by the Congress through 
overwhelming votes in both Houses over the past months?
    Answer. While I was not involved in the development of the 
Department's proposed rulemaking, I can assure you that, if confirmed, 
I would carefully review the comments and that I would be fully 
committed to discussing these matters with Congress before the 
Department makes any decision.

    Question 31. While it is the Department's job to interpret and 
enforce the laws, it is the Congress' prerogative to enact laws. Do you 
prefer the current approach of using a rulemaking to alter the meaning 
of ``actual control'' of U.S. air carriers to move foreign ownership 
forward, or would you rather see a legislative fix in which the 
Congress determines an acceptable process for allowing increased 
foreign investment in domestic airlines?
    Answer. I was not involved in the development of the Department's 
proposed rulemaking. I understand Congress' interest in this matter. If 
confirmed, I can assure you that I would carefully review the comments 
filed by interested parties and that I would be fully committed to 
discussing these matters with Congress before the Department makes any 
decision.
Highway Safety
    Question 32. The National Highway Traffic Safety Administration 
(NHTSA) has set a goal of achieving a 1.0 fatality rate per 100 million 
vehicle miles traveled (MVMT) by 2008. However, recent decreases in the 
fatality rate have only been incremental. In 2005, the fatality rate 
actually increased for the first time in twenty years. At the same 
time, the actual number of highway and traffic fatalities has increased 
almost every year since 1992, reaching a total of 43,443 in 2005, the 
highest number of fatalities in over a decade. How does the Department 
intend to achieve a fatality rate of 1.0 per 100 million vehicle miles 
traveled by 2008? What specific steps are you going to take as 
Secretary to ensure that future National Highway Traffic Safety 
Administration (NHTSA) undertakings are directed at reducing the 
fatality rate?
    Answer. Like you, I am troubled by the increase in the fatality 
rate in 2005. As FHWA Administrator, I made highway safety my highest 
priority and worked closely with the Administrators of the Federal 
Motor Carrier Safety Administration (FMCSA) and the National Highway 
Traffic Safety Administration (NHTSA) to develop strategies for 
reducing fatalities and injuries. Should I be confirmed, I plan to 
continue placing a heavy emphasis on safety initiatives and programs. 
For example, it is important to incentivize states to implement key 
highway safety programs such as primary and secondary seat belt laws 
enforcement of drunk driving laws, and motorcycle helmet use.

    Question 33. The CAFE Program was funded at approximately $20 
million annually at the program's inception through the 1980s. In 2006, 
the CAFE Program was funded at $1.6 million, and the CAFE Program staff 
is entirely reliant on data provided by the auto industry and has no 
ability to do independent assessments. The fines collected from CAFE 
are currently deposited in the Treasury. Would you be willing to 
consider redirecting CAFE fine receipts back to the National Highway 
Traffic Safety Administration (NHTSA) for the purpose of supporting 
current and future CAFE rulemakings?
    Answer. I have not been made aware of any funding problems faced by 
NHTSA's CAFE program. However, if confirmed, I will ask NHTSA to 
provide a status update on that specific program, and will keep your 
proposal in mind if funding is determined to be inadequate.
The Environment
    Question 34. Based on current greenhouse gas (GHG) emission 
reporting guidelines, the transportation sector directly accounted for 
approximately one-third of total U.S. GHG emissions. Transportation is 
the fastest-growing source of U.S. GHGs and the largest end-use source 
of CO2, which is the most prevalent greenhouse gas. Estimates of GHG 
emissions do not include additional ``lifecycle'' emissions related to 
transportation, such as the extraction and refining of fuel and the 
manufacture of vehicles, which are also a significant source of 
domestic and international GHG emissions. As Secretary, what would you 
have the Department of Transportation do to promote GHG emissions 
reductions in the transportation sector, including through technology 
and fuel efficiency requirements?
    Answer. The U.S. Department of Transportation, with its agency and 
state partners, works to ensure that policies balance environmental 
goals with our transportation goals of safety, mobility, and 
efficiency. All programs that reduce fuel consumption also reduce 
carbon dioxide emissions. Among many important DOT programs, I am aware 
of three new initiatives that are of particular importance:

  <bullet> The National Strategy to Reduce Congestion on America's 
        Transportation Network, released by the Department in May. 
        Effective policies--including technology, public/private 
        partnerships, and market-based approaches--have the potential 
        to reduce fuel usage, and hence emissions in aviation, freight, 
        and passenger travel.

  <bullet> New legal authority to reform passenger car Corporate 
        Average Fuel Economy (CAFE), as requested by Secretary Mineta 
        in April. With the support of Congress, it will be possible to 
        develop a new passenger car CAFE rule that increases fuel 
        economy and provides net benefits to the economy.

  <bullet> The Federal Aviation Administration has been working with 
        airlines to improve fuel efficiency through improvements in 
        operations that save fuel and otherwise reduce environmental 
        effects.

    Question 35. Does the Administration have any plans to reduce the 
contribution of GHG emissions by the transportation sector?
    Answer. The Administration's long-term strategy for reducing 
greenhouse gas emissions in the transportation sector is to hasten the 
transition to a hydrogen economy, through the President's Hydrogen 
Initiative. DOT's work focuses on helping develop safety codes and 
standards for hydrogen vehicles and infrastructure, and demonstration 
programs for hydrogen fuel cell buses.

    Question 36. At a time when it is clear that we cannot count on an 
uninterrupted, cheap supply of energy, isn't it in the Nation's 
interest to ensure we harness technology and incentives to use the 
least amount of fuel possible to transport people and goods? This would 
be a ``no regrets'' measure, because it makes both economic and 
environmental sense. If confirmed, would you work with us to devise 
such a tangible win-win strategy for America?
    Answer. The President and I share your concerns about the current 
energy situation, and if confirmed, I look forward to working with the 
Congress to implement cost-effective strategies to improve the 
efficiency of the transportation sector.
    The key elements on the Department of Transportation's energy 
agenda are congestion, CAFE reform, and modernizing the air traffic 
system. These programs make both economic and environmental sense. 
Collectively, they incorporate technology, incentives, and market-based 
measures. Each program requires the support of Congress to achieve its 
potential. I look forward to working with you on them.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Conrad Burns to 
                          Hon. Mary E. Peters

    Question 1. Ms. Peters, if you are confirmed as Transportation 
Secretary, you will face a substantial challenge in terms of capacity 
constraints on our transportation network. In the next 20 years, the 
freight shipments are expected to dramatically increase, placing 
serious demands on roads, aviation, rail, and waterways. My particular 
concern, as you know, relates to the role that freight rail plays in 
our nation's infrastructure. I think we have a problem in our rail 
industry that can not be ignored any longer. There are capacity 
constraints, but those limitations are a symptom of the much larger 
problem of a lack of meaningful competition for rates and service in 
many parts of the Nation.
    Ms. Peters, do you see competition issues as a serious problem for 
the freight rail industry, and what will you do, if confirmed, to help 
address those problems?
    Answer. I recognize that our rail infrastructure will need added 
capacity to meet the freight demands for the next several decades. If 
confirmed, I look forward to working with and encouraging both large 
and small railroads to invest additional capital in new construction 
and technology that will expand our rail network and in turn allow for 
robust competition.

    Question 2. Sec. 10101 of Title 49 of the U.S. Code sets forth the 
rail transportation policy for this Nation. It states, in part, that 
``it is the policy of the U.S. Government to allow, to the maximum 
extent possible, competition and the demand for services to establish 
reasonable rates for transportation by rail'' and ``to maintain 
reasonable rates where there is an absence of effective competition.'' 
This is the policy of the U.S. Government--not just the Surface 
Transportation Board--so as Transportation Secretary, you share this 
obligation. Do you believe we have achieved these goals, and if not, 
what will do you if confirmed to help implement this vision?
    Answer. I recognize the Surface Transportation Board (STB), an 
independent regulatory agency, continues to struggle with this issue. 
Although I am not familiar with the specific cases before the STB, I am 
aware of the need to bring together small and large railroads, 
shippers, states, local communities, and other interested parties to 
mitigate some of these rate concerns. Where competition is not easily 
achievable, railroads and shippers need to have the ability to resolve 
their differences in a fair and unbiased manner. Additionally, if 
confirmed, I promise to reach out to the STB and have regular dialogue 
with its appointed board members on these issues.

    Question 3. While we are on the subject of rail, let's talk a 
little about Amtrak. We've had quite a battle over the last couple of 
years on Amtrak, especially in terms of the budget that the 
Administration sends up to us. What are your thoughts on Amtrak? Will 
you be an advocate for passenger rail and work with Congress to 
implement reasonable reforms that ensure Federal subsidies are well 
spent?
    Answer. I support a national rail passenger system and believe it 
is an important component of our nation's transportation network. If 
confirmed, I look forward to working with you and your colleagues to 
pass a long-term reauthorization to end the annual funding crisis that 
Amtrak has operated under for too many years now.

    Question 4. What are your thoughts on the Essential Air Service 
program, and what role do you believe rural air service plays in the 
national aviation system?
    Answer. As a former director of transportation for a state with 
large rural areas, I fully appreciate the impact that the EAS program 
has had on ensuring rural America access to our nation's air 
transportation system. I also believe that it is time to take a fresh 
look at the program to assure that it is accomplishing it objectives as 
effectively as possible. The laws governing our administration of the 
EAS program have not changed significantly since its inception 28 years 
ago, notwithstanding the dramatic changes that have taken place in the 
airline industry. If confirmed, I would like to work with Congress to 
address these issues.

    Question 5. As the months progress, this committee will be turning 
its attention to the FAA Reauthorization bill. Do you have any thoughts 
on how we can effectively modernize the aviation system through that 
process?
    Answer. If confirmed, one of my top priorities will be to reach out 
to Congress and the aviation community for input as the Administration 
develops a reauthorization proposal. Air traffic modernization is 
absolutely critical to ensure our aviation system remains the envy of 
the world. Consequently, a key element of the coming reauthorization 
will be to implement funding structures and mechanisms that will allow 
us to build air transportation systems for the 21st century.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Hon. Mary E. Peters

    Question 1. As a former director of a state transportation 
department, to what extent should states have the flexibility to 
utilize programmatic funds for transportation improvements? Do you 
advocate a relaxation of programmatic restrictions on Federal Highway 
programs?
    Answer. While I understand that providing funds by program category 
enables Congress to target resources according to national needs and 
priorities, I believe it is important to provide states significant 
flexibility to transfer funds among programs in order to improve their 
ability to choose the best mix of solutions to meet their individual 
transportation needs. For example, programs like the Surface 
Transportation Program (STP) and the Congestion Mitigation and Air 
Quality Improvement Program (CMAQ) offer broad eligibilities for 
funding highway and transit projects.
    The National Surface Transportation Policy and Revenue Commission 
is currently examining future transportation program direction, as well 
as funding alternatives. If confirmed, I look forward to chairing the 
Commission and presenting programmatic recommendations to the Congress 
next year.

    Question 2. Would you continue your predecessor's support of a 
waiver for Maine to utilize Federal highway funds for continued 
operation and successes of the Downeaster? Is the success of Maine's 
passenger rail system something that would serve as a potential model 
for other passenger rail routes nationwide?
    Answer. Yes. As a former state transportation director, I strongly 
support giving states appropriate flexibility to use Federal dollars 
under certain circumstances. I continued my support of this policy as 
Federal Highway Administrator. If confirmed, I will support the waiver 
for Maine to utilize Federal highway funds for the Downeaster.
    The success of the Downeaster demonstrates that passenger rail can 
be a successful component of a state's overall transportation network 
if the state is directly invested in developing and providing ongoing 
support for its passenger rail routes.

    Question 3. In your previous capacity as Federal Highway 
Administrator, I know you were a strong supporter of innovative 
financing. including public-private partnerships and the use of State 
Infrastructure Banks. Looking in the near-term, it is my understanding 
that a potential redistribution of leftover highway funds may occur 
this October. Do you foresee such a redistribution of funds occurring 
before the end of the Fiscal Year?
    Answer. It is my understanding that the annual redistribution 
occurred earlier this month, and a total of $2.1 billion of obligation 
authority was available for redistribution to the states for their 
highway programs.

    Question 4. For example, one successful project you may be aware of 
is the Waldo-Hancock Bridge, which has been partially paid for by 
bonding. Is paying off something like a GARVEE Bond considered an 
eligible use for these funds?
    Answer. While I am not knowledgeable about the specifics of the 
Waldo-Hancock Bridge, Grant Anticipation Revenue Vehicles, or 
``GARVEE'' bonds are an eligible use of Federal-aid funds.

    Question 5. Can you assure my colleagues and I that, as Secretary 
of Transportation, you would ensure the Commission is allowed to 
proceed independently and is unbound by any ideological constraints in 
the formulation of its recommendations for Congress?
    Answer. Yes. Congress created the Section 1909 Commission in 
SAFETEA-LU to provide recommendations on transportation policy and 
financing that would inform the next surface transportation 
reauthorization process. Prior to my nomination as Secretary, I was 
honored to serve on that Commission as Vice-Chair. In that capacity, I 
worked with then-Chairman Mineta and my fellow Commissioners to ensure 
that all viable options and solutions for improving our transportation 
system would be considered in an independent manner. If confirmed, I 
will continue that approach as Commission Chairman.

    Question 6. As it becomes more and more apparent that a new 
approach is needed for providing a sustainable, realistic method for 
Federal transportation funding, do you see an end of the Federal 
gasoline tax as the sole provider of these funds?
    Answer. The Federal fuel tax will continue to play a role in 
funding national infrastructure, but it has already ceased to be the 
sole provider of highway funding. I believe that the role of the fuel 
tax will continue to diminish as vehicle fuel efficiency increases and 
new transportation technologies are introduced. Over the last 10 years, 
and with the blessing of the Federal Government, states have 
increasingly turned to private sector partners in the financing 
process, especially for new infrastructure. They are also looking for 
ways to implement new funding mechanisms that track more closely to the 
costs that highway users impose on the highway system.

    Question 7. What sort of new funding regime to you foresee, 
relative to your discussions on the Commission? In the short term, is 
it a combination of means; gasoline taxes, bonding, public-private 
partnerships, and a smattering of other methods? How do you envision 
the Department accounting for vehicles like hybrid-use or electric?
    Answer. In the short term, the highway fuel tax will remain the 
mainstay of Federal highway funding. But already, for new highway 
infrastructure, private sector finance is playing a prominent role in 
highway infrastructure funding. The new Private Activity Bond provision 
in SAFETEA-LU is now being implemented, and will lead to an increase in 
tax-exempt bonding as a source of highway finance. And as you note, the 
proliferation of higher fuel efficiency vehicles will result in 
decreasing fuel tax revenues. The Surface Transportation Policy Revenue 
Study Commission is examining these very issues and at this point, it 
is too early to predict what new funding structures the Commission will 
recommend.

    Question 8. Do you have any concerns that the changes in the 
collection of aviation fuel taxes, which went info affect as part of 
the 2005 Highway Bill, could have a significant negative impact on the 
Aviation Trust Fund, and that the Trust Fund could lose deserved 
revenues to the Highway Trust Fund?
    Answer. It is my understanding that we do not yet have sufficient 
data to estimate the extent of the impact on Aviation Trust Fund 
revenues from this issue. Given the low balance in the Aviation Trust 
Fund, any revenue loss would certainly be a concern. I am also aware 
that some in the industry have expressed concern about the 
administrative burden these changes have caused for the aviation 
industry. If confirmed, I will monitor this issue and work with 
Congress to make changes if necessary.

    Question 9. What are the financial impacts of the hiring, training, 
and assimilating these controllers into our national Air Traffic 
operations? How does the financial outlook of the Aviation Trust Fund 
affect the ability of the FAA to hire and retain these vital employees 
who are so crucial to the unparalleled safety of our aviation system? 
How quickly can these new controllers become a part of the Air Traffic 
management system?
    Answer. It is my understanding that the FAA has recently released 
an updated Controller Workforce Plan that addresses these issues. If 
confirmed, I will work closely with the FAA Administrator and the 
Department's Inspector General to ensure that the Plan adequately 
addresses all of these factors and that the FAA is hiring and training 
controllers in accordance with the Plan.

    Question 10. With the potential to lose up to 33 percent of our 
current air traffic controller workforce, and the FAA rushing to get 
new systems and technology in place to fill that gap, a worst-case 
scenario where we are short on both human and technological resources 
are deficient to maintain the safety of our skies. What steps would you 
propose taking to develop a back-up plan if this scenario were to 
arise?
    Answer. I believe it is critical to develop and implement a plan of 
action to avoid a worst-case scenario. It is my understanding that the 
Controller Workforce Plan is designed to ensure that we do not face 
such a gap as you describe. As noted above, if confirmed, it will be 
one of my top priorities to review the Plan with the FAA Administrator 
and the IG.

    Question 11. Among the cost-savings measures that have been 
proposed to account for the fact that many of our next-generation 
technologies for air traffic control are over-budget and behind 
schedule is the closure of overnight operations at some Air Traffic 
Control Towers, as well as the consolidation of certain TRACONs across 
the country. With such a vast increase in operations and the number of 
planes of various capabilities forecasted for the next decade, is it 
really wise to begin to close down facilities when the activity in our 
skies is only increasing?
    Answer. Following our meeting, I discussed this issue with the FAA 
Administrator, and she has assured me that the FAA has no plans to 
implement the overnight closures the agency had been considering at 
this time.

    Question 12. Are you aware of any concerns on behalf of the 
aviation community that due to the growing number of planes, increased 
congestion, and an inability to increase capacity, other positions may 
come up short in the future, high-paying positions such as pilots that 
could conceivably affect the airlines' bottom line?
    Answer. Concern with the health of the industry is one of DOT's 
core missions. If confirmed, I will make it one of my first priorities 
to visit with the aviation community and seek its feedback on the 
challenges facing our air traffic management systems in the long-term.

    Question 13. With the potential crisis in our aviation workforce, I 
found it somewhat stunning that some Towers are being considered for 
closure by the FAA, particularly some that possess both commercial and 
military utility. It is especially galling in light of the fact that 
the cost-savings are not only considered negligible, but such savings 
projections are completely inconsistent, ranging from $2 to $5 million. 
When is the final list of Towers that FAA is suggesting for closure 
going to be released? Do you anticipate that this is the first of 
several rounds of such closures to be conducted?
    Answer. As mentioned above, I discussed this issue with the FAA 
Administrator, and she has assured me that the FAA has no plans to 
implement the overnight closures the agency had been considering at 
this time.

    Question 14. In the event that the FAA does close several of the 
towers on the preliminary list, does it retain the right to reopen them 
at a later time? If many of the projections offered by the FAA come to 
pass, having as many functional Towers and controllers able to handle 
the capacity issues would seem a prudent measure, given the potential 
dangers of overcrowding in our skies.
    Answer. As mentioned above, I discussed this issue with the FAA 
Administrator, and she has assured me that the FAA has no plans to 
implement the overnight closures the agency had been considering at 
this time.

    Question 15. Administrator Peters, have you had an opportunity to 
examine the various reform proposals being issued for Amtrak? What are 
your thoughts on reforming the passenger rail system?
    Answer. I am aware that there are several different reform 
proposals that have been drafted and discussed, but I have not had a 
chance to go through them in detail. I believe there is a role for a 
national rail passenger system. It should be funded in a manner that 
allows it to deliver maximum benefits to consumers while recognizing 
the need to invest the taxpayers' money wisely. I also recognize the 
need to create a national rail passenger system that incorporates 
significant reforms from its current state. If confirmed, I look 
forward to working with the Senate Commerce Committee on a 
comprehensive bill that includes significant reforms.

    Question 16. In the future, as Federal funding for Amtrak will 
hopefully be curtailed as its profitability increases, do you support 
some sort of partnership such as an 80-20 capital funding program to 
help states pay for infrastructure investment?
    Answer. I believe that the Amtrak reform process must keep all 
options on the table.

    Question 17. Have you considered any ideas on using alternative or 
non-traditional sources of funding to supplement passenger rail? Has 
there been any examination of developing a financing regime outside the 
realm of receiving a check from the Federal Government every year?
    Answer. Funding for Amtrak is one area where significant reforms 
need to be made. I believe Amtrak must operate on a sustainable 
business model. I also believe that states should contribute to 
passenger rail service, as Maine already does. If confirmed, I look 
forward to working with you and your colleagues to pass a long-term 
reauthorization to end the annual funding crisis that Amtrak has 
operated under for too many years now.

    Question 18. Do you feel the Department has a role in promoting the 
increased use, and possible expansion of, the existing Amtrak system in 
light of the dramatic increase in the use of rail and transit systems 
given the roller coaster ride that has become our domestic gasoline 
prices.
    Answer. DOT must continue to encourage the use of public 
transportation systems, including Amtrak. Additionally, DOT must assist 
states and communities to maximize transit capacity and reliability.

    Question 19. It has come to my attention that the bulk of existing 
Amtrak passenger cars and their engines--excluding the Acela high-speed 
rail, which had its own problems with the braking system just last 
spring--are practically worn out. Will you seek funding for upgrades or 
even replacements if you are confirmed, before the equipment shortage 
becomes critical?
    Answer. Amtrak must look at its entire operation and prioritize its 
capital needs to ensure a future system that delivers maximum benefits 
to consumers.

    Question 20. Just this past Monday, the University of Michigan 
Transportation Research Institute came out with a report stating that 
the Ford Motor Co., General Motors Corp. and DaimlerChrysler AG could 
increase their profits by $800 million to $2 billion a year by using 
aggressive strategies for improving fuel efficiency regardless of what 
happens to gas prices or what their competitors do. Needless to say 
they could use an infusion like this.
    Even taking into account gasoline prices and actions of their 
competitors, the analysis found the optimal strategy for each automaker 
was to take a proactive approach rather than business as usual, that 
this would be financially safer, regardless of what their competitors 
do.
    The report also said that if U.S. automakers do not take the 
aggressive approach on fuel economy, they could stand to lose as much 
$3.6 billion in profits and that they have more to gain from 
aggressively pursuing improvements in fuel economy than their Japanese 
counterparts in large part because they face more risk from high 
gasoline prices and have more room for improvement. Under this 
proactive approach, overall fuel economy would improve 7.4 percent over 
model year 2005 levels, which would mean a dramatic savings of around 8 
billion gallons of gasoline per year.
    I am sure you are well aware that Senator Feinstein and I have been 
attempting to close the SUV loophole over the past 5 years and this 
year to increase CAFE standards by 10 miles as averaged over a 
manufacturer's entire fleet over the next 10 years--or 10 in 10. We 
already have the technology to do this and we sincerely do not want 
Detroit to be the industry time forgot.
    Do you think that, if Congress had increased fuel economy standards 
over the last 5 years for passenger cars as we have the authority to do 
and NHTSA had appreciably raised SUV standards as it has the authority 
to do, the U.S. auto industry would be more competitive and we would 
have kept more high paying U.S. jobs? The University of Michigan 
Transportation Research Institute report released last week certainly 
reflects this.
    Answer. As you know, the Department is seeking the legal authority 
to reform CAFE for passenger cars. If confirmed, I look forward to 
working closely with you and this committee to advance this 
legislation. It is the position of this Administration that reforming 
CAFE for passenger cars could be done in a way that does not diminish 
the competitiveness of U.S. automakers.

    Question 21. It sounds to me from the Michigan report that both 
Congress and the Administration have done as much disservice to the 
U.S. automakers as the automakers have done to themselves by not 
calling for an increase in CAFE standards, especially in light of the 
2001 National Academies CAFE report that gave us a clear signal that 
increasing fuel economy standards was feasible and economically viable 
if automakers were given enough lead time to design and build more 
efficient vehicles. The big loser here--and the most distressing to 
me--is the loss of high paying U.S. manufacturing jobs. If Congress 
were to abrogate its authority to you for increasing fuel economy 
standards for passenger cars, what kind of an increase can we expect 
NHTSA to make under your leadership, especially given the very small 
increase of less than two miles per gallon NHTSA came out with for 
SUVs?
    Answer. I agree with you that achieving higher fuel economy 
standards is important, but I also believe that such increases must not 
be made at the expense of passenger safety or American jobs. If given 
the authority by Congress to reform CAFE, I will ensure that NHTSA 
raises fuel economy standards for passenger cars to their maximum 
feasible level, while taking into account safety, data, technology, and 
American jobs.

    Question 22. As part of the 2005 Highway Bill, a provision 
encouraged states to give diesel retrofitting of transit vehicles 
priority in making decisions when spending their programmatic highway 
funds. This provision did not pre-empt the states authority to make 
final decisions on how to spend those funds, but encouraged the states 
to focus on improving their emissions by using this diesel technology. 
It is my understanding that the DOT will be issuing guidelines very 
soon. This would be a tremendous help in reducing emissions for public 
transit, such as a fleet of city buses. Can you tell us how DOT plans 
to use the guidance to ensure that the legislative intent as it affects 
diesel retrofits will be carried out?
    Answer. Since my nomination, I have not had the opportunity to be 
briefed on the status or content of the proposed retrofitting 
guidelines. However, if I am confirmed, I will quickly get educated on 
this issue and will ensure that you receive a briefing before the 
guidelines are released.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                          Hon. Mary E. Peters

Highways
    Question 1. A number of states have taken advantage of Federal 
regulations which allow states to lease operational control over 
federally funded toll roads to private corporations, including foreign 
corporations. Indiana, for instance, recently leased the Indian Toll 
Road to an Australian-Spanish conglomerate, Macquarie-Cintra, for $3.8 
billion over 75 years. While this provided an immediate influx of 
funding for the state, it will ultimately result much higher profits 
for the operator and has proven to be a divisive issue among Indiana 
residents concerned about highway management and toll increases.
    You have been a strong advocate of free-market solutions to public 
infrastructure problems. Do you support allowing states to lease 
federally financed toll roads to private corporations, including 
foreign corporations?
    Answer. States and other non-Federal authorities own and operate 
the vast majority of roads in America. Many of these roads, including 
the older toll road systems, were constructed prior to the creation of 
the interstate highway system with little or no Federal financial 
support. Where the facilities were built using Federal funds, I believe 
it is important that the public interest is protected in any potential 
transaction.
    In my time at FHWA, I supported giving states flexibility to 
explore new partnerships with the private sector. With the enactment of 
SAFETEA-LU, Congress also declared its support for more state 
flexibility. The question that must always be asked is: does the 
contractual arrangement improve performance of the facility, enhance 
customer services and protect the interests of the taxpayer. If the 
public interest and security can be protected in connection with these 
types of transactions, then we should continue to support them.

    Question 1a. If so, do you believe this is the best way to solve 
highway funding deficiencies?
    Answer. There are multiple approaches that we must take to solve 
our highway infrastructure problems. Those problems extend beyond 
simply the need for more funding. We must also make significant 
improvements to how we manage our existing systems to reduce congestion 
and improve system safety and reliability. The private sector is 
willing and able to play a large partnership role with the public 
sector to help the country address these problems. But private sector 
participation will not necessarily make sense everywhere. The Federal 
Government can supply resources, expertise and leadership to help the 
diverse regions of the country tailor solutions to fit their own 
specific needs.

    Question 2. Would you support allowing states to lease management 
and maintenance of any federally financed state road system to a 
private corporation?
    Answer. I support giving states the tools and flexibility to 
optimize the performance of their highway system. The Federal 
Government has historically played and continues to play a major 
investment role in the U.S. highway system. In certain circumstances, 
private entities, working in conjunction with state and local agencies, 
can improve the operational performance and provide high levels of 
customer service on highway facilities. This, in turn, can increase the 
returns on Federal investments. Congestion, undercapitalization and the 
misallocation of investment resources reduces the effectiveness of 
those investments. If confirmed, I will work tirelessly to assure that 
Federal investments produce positive results for the American taxpayer.

    Question 3. How is the public interest served by allowing private 
corporations to control publicly funded infrastructure?
    Answer. Growing congestion, increasing safety risks and declining 
reliability are all threats to the public interest, the quality of life 
of all Americans and the U.S. economy. If private entities are capable 
of helping state and local governments reduce these trends, they will 
help governments advance the public interest. The public entity retains 
ownership of the infrastructure in these agreements, and exercises 
control of the infrastructure through specific requirements in the 
contractual documents. The degree to which governments call on the 
private sector for such assistance will vary across the country.

    Question 4. Do you support extending private leasing authority to 
states for other modes of transportation?
    Answer. Most other modes of transportation have long had extensive 
private sector participation. Whether or not a leasing or concession 
model can be effective depends on the mode of transportation. The U.S. 
freight railroad system, widely considered to be the most productive in 
the world, is privately owned, financed and managed. Seaport terminals 
have been operating under a public/private model, including long-term 
leases to private terminal operators, for many, many years. To date, 
there has been less interest utilizing private capital (except of 
course through the access of private lenders in the tax-exempt 
marketplace) in public transportation and aviation infrastructure. The 
question that must always be asked is: does the contractual arrangement 
improve performance of the facility, enhance customer services and 
protect the interests of the taxpayer. The answer will likely vary from 
case to case.
Aviation
    Question 5. As you know, the Federal Aviation Administration (FAA) 
stands to lose more than thirty percent of its air traffic controllers 
to retirement and attrition over the next 3 years. It takes roughly a 
year to train a new controller, and it is unclear that the FAA has made 
progress hiring enough new controllers to avoid a staffing crisis. What 
is your plan to hire and train enough controllers to make up this 
shortfall and keep up with projected increases in air traffic?
    Answer. It is my understanding that the FAA has recently released 
an updated Controller Workforce Plan. If confirmed, I will work closely 
with the FAA Administrator and the Department's Inspector General to 
ensure that the Plan is adequate to meet projected retirements and that 
the FAA is hiring and training controllers in accordance with the Plan.

    Question 6. In 2003, Congress passed legislation preventing the FAA 
from privatizing the Air Traffic Control System (ATC) for 1 year. When 
the prohibition was lifted in 2004, the FAA leased control of Flight 
Service Stations to Lockheed Martin and required Flight Service 
Specialists to compete for their jobs. Do you support the FAA's 
decision to privatize FSS's, and will you support privatizing the 
entire ATC as Secretary of Transportation?
    Answer. Although I am not familiar with the specifics of the Flight 
Service Station contract, my understanding is that all affected FAA 
employees were either offered jobs with the contractor, Lockheed 
Martin, or were hired into other areas of the FAA. In 2002, Secretary 
Mineta determined that air traffic control services at en route and 
large terminal facilities are a core capability of the FAA and 
therefore not subject to outsourcing.

    Question 7. Are you aware of any A-76 studies being conducted by 
the Office of Management and Budget in anticipation of privatizing the 
other components of the ATC?
    Answer. I am not.

    Question 8. Do you believe that privatizing one or all components 
of the ATC will increase safety and reduce accidents?
    Answer. Any proposal to privatize a component of the system would 
have to be evaluated on its individual merits before making a final 
judgment.

    Question 9. The FAA has also decided to consolidate its Air Traffic 
Organization (ATO), ostensibly to save money. As you know, the ATO 
provides maintenance and logistical support to FAA and local airport 
personnel. The FAA's plan will require the closure of several regional 
ATO offices, including the Burlington, Massachusetts office. Instead, 
the ATO's New England operations will be conducted from Atlanta. 
Burlington office employees who do not want to transfer to Atlanta can 
either quit or take a reduced pension.
    Do you believe it is feasible to conduct air traffic support for 
New England from Atlanta, and do you believe that the FAA is capable of 
providing the same quality of service from Atlanta that it does from 
Burlington?
    Answer. It is my understanding that the FAA will continue to staff 
the Burlington office while consolidating administrative functions, 
such as budgeting, finance, personnel support, and procurement support 
to Atlanta. The FAA does not believe consolidating administrative 
functions will affect the maintenance and logistical support that is 
provided to the New England airports or affect the control of air 
traffic.

    Question 10. Are you concerned that closing the Burlington office 
could compromise safety at Logan and other regional airports?
    Answer. I do not believe that consolidating administrative and 
support staff functions will affect the safety of the air traffic 
control system or compromise the safety at Boston Logan or other local 
airports. It is also my understanding that major operating facilities, 
such as those in Boston, will continue to have administrative staff in 
place to support the local facilities and local airports.

    Question 11. If Congress allows the FAA to finish consolidating the 
ATO, will you commit to helping employees at the Burlington office who 
do not or cannot move to Atlanta find comparable jobs at other FAA 
facilities in Massachusetts?
    Answer. To the extent that comparable FAA jobs exist in 
Massachusetts, I will commit to helping employees at the Burlington 
office find those jobs. Additionally, if confirmed, I will direct the 
FAA to work with the Department's other operating administrations to 
identify potential openings within the Department's other Massachusetts 
offices.
LORAN-C
    Question 12. As you know, LORAN-C is an international multi-modal 
navigation and timing system used by commercial and recreational 
mariners, general aviation pilots, the telecommunications industry, the 
military, and other government agencies as a back-up to the Global 
Positioning System (GPS). Earlier this year the Coast Guard asked 
Congress to shut-down LORAN despite having failed to coordinate its 
request with the Department of Transportation and other Federal 
agencies that have an interest in the system or solicit public 
comments.
    I am very concerned by the Coast Guard's effort to shut down a 
valuable civilian and national security asset and have worked with 
Chairman Stevens and others to prevent it.
    Do you support maintaining LORAN as a back-up to GPS? If so, will 
you commit to working with the Department of Homeland Security to 
develop a national LORAN policy?
    Answer. It is my understanding that the Department, in coordination 
with the Department of Homeland Security (DHS), is required to make a 
decision regarding the future of the LORAN system by the end of 2006. 
If I am confirmed, I assure you that any decision regarding the future 
of LORAN will be consistent with existing Federal policies to ensure 
sufficient back-up in the event of a disruption of GPS. Furthermore, if 
the decision is to maintain LORAN as part of the Nation's 
infrastructure, DOT will work closely with DHS to develop a national 
policy on LORAN.
Amtrak
    Question 13. In 2003, the Bush Administration introduced an Amtrak 
plan that called for separating the Northeast Corridor from the Amtrak 
system and hiring a private operator to run it. Additionally, the 
President's budget requests for Amtrak have been well below what Amtrak 
says is necessary to provide adequate service and avoid bankruptcy, 
leaving Congress to increase funding to maintain the system. Do you 
support federally funded intercity passenger rail service?
    Answer. I support a national rail passenger system. I believe the 
system must be operated on a sustainable business model and deliver 
maximum benefits to consumers while recognizing the need to invest the 
taxpayers' money wisely. I also believe that states should be involved 
in and contribute to passenger rail service, as Massachusetts does. If 
confirmed, I look forward to working with you and your colleagues to 
pass a long-term reauthorization to end the annual funding crisis that 
Amtrak has operated under for too many years now.

    Question 14. Will you commit to maintaining the Northeast Corridor 
as a part of a federally funded Amtrak system?
    Answer. I look forward to working with the Senate Commerce 
Committee to create a national rail passenger system that incorporates 
significant reforms from its current state. I believe that the Amtrak 
reform process must keep all options on the table.

    Question 15. Will you oppose privatizing any part of the Amtrak 
system?
    Answer. As I previously mentioned, I look forward to working with 
the Senate Commerce Committee to create a national rail passenger 
system that incorporates significant reforms front its current state. I 
believe that the Amtrak reform process must keep all options on the 
table.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Hon. Mary E. Peters

    Question 1. Last year, the Federal Government purchased 64,000 
passenger vehicles. According to the U.S. Department of Energy, the 
average fuel economy of the new vehicles purchased for the fleet in 
2005 was an abysmal 21.4 miles per gallon.
    Today, hybrid cars on the market can achieve over 50 miles per 
gallon and SUVs that can obtain 36 miles per gallon. The government's 
average of 21.4 miles to the gallon is too low.
    I have a bill, S. 2773, ``Government Fleet Fuel Economy Act of 
2006,'' that requires the Federal Government to purchase vehicles that 
are fuel-efficient to the greatest extent possible. Yes or no, will you 
support my bill? If no, why?
    Answer. I have not had the opportunity to review to review your 
legislation in detail, but there is no question we can do more to 
improve the fuel economy of all vehicles, including government 
vehicles. However, should I be confirmed, please be assured that I will 
examine your proposal and work with you on this critical issue.

    Question 2. In the last few months, there have been problems at Los 
Angeles International Airport and the TRACON.
    ILS Failure: In 2 weeks, the Instrument Landing System (ILS) at LAX 
failed twice.
    Power Outage: A power outage in Palmdale (which was not the fault 
of the FAA) occurred in July. This is where the TRACON, the regional 
radar system, is located. Back-up generators immediately started. 
However, the backup generator eventually failed and the radio and radar 
systems were not operational. Controllers lost radio communication with 
pilots for 15 minutes, and the radar was out for 2 hours.
    Near Miss on Ground: In July, two small airliners on the ground 
came within moments of colliding with each other. It was pilot error 
when one pilot did not follow instructions and went into another 
plane's runway. An air traffic controller saw what happened and yelled 
into the radio to warn the other plane. However, part of the problem 
was a warning alarm that was turned off on a ground radar system after 
it had a false alert.
    Accident: A cargo truck hit a Qantas Airways jet damaging the 
plane's engine but causing no injuries.
    Are the problems in Southern California separate incidents or part 
of a larger mismanagement problem by FAA?
    Answer. It is my understanding that all recent incidents at LAX 
were largely due to unrelated factors and have been addressed by the 
FAA. A service technician has been stationed at the airport 24 hours a 
day, 7 days a week until construction is finished. If confirmed, I will 
work with the Administrator to ensure that LAX and other California 
airports receive the highest level of air traffic services.

    Question 3. The Palm Springs Airport needs a new control tower 
because the old one is out of date and too short, so it is a potential 
safety problem. Last year, Rep. Bono obtained $2.3 million. This year, 
Rep. Bono and I each obtained $2 million in the TTHUD appropriations 
bill. Can FAA begin the process of building the new tower?
    Answer. The Air Traffic Control Tower at Palm Springs Airport is on 
the FAA's list for terminal replacement projects, earmarked by 
Congress. I understand the importance of a replacement tower to you and 
to the people of Palm Springs and, if I am confirmed, I will work with 
you to ensure this project is completed as expeditiously as possible.

    Question 4. Over 40 percent of the Nation's imported goods come 
through the ports of Los Angeles and Long Beach. After the goods 
arrive, they are shipped through Los Angeles County and the Inland 
Empire (the counties to the east of Los Angeles County), which causes 
increased air pollution and congestion both with trains and truck 
traffic on the highways.
    This is a national issue because people across the Nation receive 
less expensive goods while people in California are negatively impacted 
with increased congestion and public safety concerns. What are 
potential solutions to solve this problem? And, how would you pay for 
the solutions?
    Answer. The Department is working to ease congestion at our ports, 
not only to reduce the economic costs that such congestion imposes on 
the United States, but also to limit the environmental impacts that it 
can bring. My understanding is that the Department's Congestion 
Management Initiative specifically targets congestion at the Ports of 
Los Angeles and Long Beach. As a part of that Initiative, DOT has 
reached out to other Federal agencies, states, and stakeholders to 
define the parameters of this problem and to think creatively about 
public and private funding sources that could be tapped in order to 
tackle it.

    Question 5. One issue of concern with the highway bill is the 
decreasing highway trust fund and how to fund the next bill. What are 
your suggestions for a dedicated source of funding to continue to pay 
for highway and transit construction?
    Answer. While I believe that the gasoline tax will continue to be 
an important source of dedicated funding for our highways and transit 
systems, I also believe it is critical that we begin to diversify our 
funding resources using innovative financing mechanisms. For example, a 
2005 special report from the Transportation Research Board recommends 
expanded use of tolling and road use metering among other long-term 
alternatives for transportation funding. I believe we should explore 
these and other innovative possibilities that will allow us to maintain 
a vibrant and effective transportation system. I look forward to 
working with Congress and surface transportation stakeholders in this 
endeavor.

    Question 6. Amtrak is important for California, which has the 
second highest Amtrak ridership in the country and the ``Pacific 
Surfliner''--the second most traveled corridor in the country. Amtrak 
offers three different services in California: (1) state-supported--the 
most important; (2) commuter operations; and (3) long-distance service. 
Do you support Amtrak? If yes, how do you suggest Amtrak is funded in 
the future?
    Answer. I support a national rail passenger system. I believe the 
system must be operated on a sustainable business model and deliver 
maximum benefits to consumers while recognizing the need to invest the 
taxpayers' money wisely. I also believe that states should be involved 
in and contribute to passenger rail service, as California does. If 
confirmed, I look forward to working with you and your colleagues to 
pass a long-term reauthorization to end the annual funding crisis that 
Amtrak has operated under for too many years now.

    Question 7. I am concerned over losing the oil produced in Alaska's 
Prudhoe Bay due to corrosion of the pipeline operated by BP and the 
lack of oversight by the Department's Pipeline and Hazardous Materials 
Safety Administration (PHMSA).
    Even before the BP pipeline incident, gasoline prices were already 
high enough to cause American consumers and businesses to struggle. BP 
neglected the upkeep of its pipeline, despite its phenomenal profits in 
recent quarters.
    How would you ensure that the Federal Government is providing 
oversight in protecting pipelines whose proper functioning is so 
crucial to our economy and environment?
    Answer. This year's incident at Prudhoe Bay demonstrates we have 
more work to do on pipeline safety and, if confirmed, I will ensure the 
Department continues to proactively reach out to stakeholders and other 
Federal, state, and local agencies to ensure a safe and reliable 
pipeline infrastructure. I also look forward to working with the Senate 
Commerce Committee to pass pipeline reauthorization. This important 
legislation will provide the Department additional authority to ensure 
the continued safety, security, reliability and enforcement of our 
pipeline system.

    Question 8. California has obtained expanded service options to 
Mexico, including flights by low-fare carriers. This has helped expand 
economic growth. Are you supportive of low-cost carriers--for both 
domestic and international service? Do you believe that the Department 
of Transportation should promote competition in the aviation industry?
    Answer. Yes, I believe that competition within the airline industry 
has a positive effect on the traveling public, which benefits front the 
availability of new services and more low-fare options both 
domestically and internationally.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. Mary E. Peters

    Question 1. The Essential Air Service (EAS) program, established as 
part of the Airline Deregulation Act of 1978, is a program that helps 
to ensure that our Nation's rural communities are serviced by 
commercial air carriers. With jet fuel costs having risen more than 165 
percent since the attacks of September 11, 2001, carriers are faced 
with considerable challenges in maintaining eligibility under the EAS 
program in providing service to rural communities.
    What adjustments will be necessary to ensure rural communities 
across the U.S. continue to receive commercial air service under the 
EAS program?
    Answer. I support the Administration's view that it is time to take 
a fresh look at the EAS program to assure that it is accomplishing it 
objectives as effectively as possible. The laws governing our 
administration of the EAS program have not changed significantly since 
its inception 28 years ago, notwithstanding the dramatic changes that 
have taken place in the airline industry. If confirmed, I will work 
with Congress, particularly Members from rural states, to review the 
EAS program in light of today's realities.

    Question 2. The most significant transportation issue for my 
constituents in southwest Washington State concerns the construction of 
a new bridge crossing I-5 at the Columbia River. With thousands of 
people crossing the river every day for work and 75 percent of all 
commercial traffic in Washington and Oregon traveling on I-5 at some 
point, construction of a new bridge is critical. Bridge traffic stops 
completely for 4 hours a day, every day due to rush hour traffic and 
bridge lifts for maritime traffic. An accident or bridge malfunction 
snarls traffic all over the Portland metropolitan area for hours. 
Analysis of new bridge solutions are costing tens of millions of 
dollars to taxpayers and projected costs for the bridge are estimated 
to be between $500 million to $1 billion. Annual traffic growth 
estimates, conservatively projected at 15 percent annually, 
dramatically exacerbating this problem.
    What can the Federal Government do to alleviate this problem, 
accelerate the process and ameliorate the financial burden on taxpayers 
in Oregon and Washington?
    Answer. I understand that the replacement of the bridge crossing I-
5 at the Columbia River is a vital project from metropolitan, regional, 
national, and international perspectives. The bridge is a critical link 
between Washington State and Oregon and needs to be replaced due to age 
and increased traffic. Work on the environmental impact statement (EIS) 
is underway and on schedule to be completed in 2009, due to the 
streamlining efforts of all the Federal, state, and local parties 
involved. The cost of this project will be shared by Washington State, 
Oregon, and affected local governments, and will include Federal 
highway and transit funding. I also understand that both Washington 
State and Oregon have public-private partnership enabling legislation, 
and while that option is not on the table now, it could be a 
consideration in the future. If confirmed, I look forward to working 
with you and the states to ensure that this critical bridge project is 
built in a timely and cost-efficient manner.

    Question 3. The Northwest corner of our nation is host to 
burgeoning international trade. Trade with Canada is substantial and 
measured in tens of billions of dollars annually in the I-5 corridor 
alone. It is widely acknowledged that global trade with existing and 
emerging trade partners, including China, will at least double over the 
next decade or so, and highway, rail and marine port capacity will be 
far exceeded. Non-highway solutions for existing and anticipated 
highway congestion have been championed by past and present 
administrations, but while appearing to offer relief, little difference 
in modal distribution has been seen. Congestion prevails as 
infrastructure and regulatory barriers to highway, rail and marine 
options defy solution.
    What multi-modal solutions and strategies will you set in motion to 
change this economically untenable condition?
    Answer. Our transportation systems must be upgraded to accommodate 
the growth in international trade--particularly with Pacific Rim 
nations--that shows no signs of abating. We must improve modal 
connectivity and encourage the widest possible array of funding 
options. Strategies such as short sea shipping and multimodal 
construction projects such as the Alaska Way Viaduct and Seattle 
Seawall improve the efficiency of regional transportation and remove 
traffic from congested transportation corridors. If confirmed, I look 
forward to advancing these and other solutions to our transportation 
chokepoints.

    Question 4. Emergency Medical Service (EMS) aviation operations 
provide an important service to the public by transporting seriously 
ill patients or donor organs to emergency care facilities. Next week 
marks the 1-year anniversary of a fatal crash of an EMS transport 
helicopter just north of Edmonds, Washington, that took the lives of 
the pilot and the two nurses on board. In January 2006, the National 
Transportation Safety Board (NTSB) released a report on its 
investigation of the 55 EMS accidents and identified recurring safety 
issues. While the NTSB noted that the Federal Aviation Administration 
(FAA) had recently taken positive steps to improve the safety of EMS 
operations, it concluded ``the FAA has not yet imposed any requirements 
for all aircraft EMS operators regarding flights without patients on 
board, risk management, flight dispatch, or the use of technologies.'' 
In your testimony before the Committee, you said that safety is the 
Department's highest priority. I agree with you and look forward to 
working with you on EMS and other aviation safety issues during the 
upcoming FAA re-authorization.
    In light of your statement, do you believe that all helicopter EMS 
should operate under more stringent Part 135 rules for all flights with 
medical crews on board?
    Answer. Due to the emergency nature of these operations and the 
life saving mission which they serve, it is heartbreaking to realize 
that the causes of some of these accidents were avoidable. It is my 
understanding that the FAA and industry have taken steps which have led 
to a marked decrease in accidents in this area. Nevertheless, if 
confirmed, I will undertake a review of this issue to determine whether 
requiring helicopter EMS to operate under Part 135 rules would improve 
safety without otherwise negatively impacting life saving operations.

    Question 5. We've seen in recent years that UAV's can play an 
invaluable role in both the military theatre and homeland security, as 
well as in non-defense capacities. Air Traffic Management and Unmanned 
Aerial Vehcles integration in the National Airspace structure is a 
critical issue as we look to expand the use of UAV's.
    What is the Department's plan to accelerate this integration? What 
steps are currently being taken? What are your thoughts with respect to 
a graduated regional UAV integration strategy that builds from less 
densely populated regions in the U.S.?
    Answer. I have not been thoroughly briefed on this subject; 
however, it is my understanding that the FAA is working to develop 
standards to integrate UAV's into the national airspace. It seems 
reasonable that UAV's could be integrated into the airspace more 
readily in sparsely populated regions of the country; however, I would 
want to have a more thorough understanding of any potential safety 
issues before the Department committed to a course of action. If I am 
confirmed, I will make it a priority to get educated quickly on this 
program.

    Question 6. This past June, the Surface Transportation Subcommittee 
held a hearing concerning service and capacity in the freight railroad 
industry. The Government Accounting Office (GAO) testified that that 
there are competition problems in the rail industry and the rate 
process at the STB doesn't work. The GAO went on to testify that the 
STB has broad powers to investigate and address rail industry 
practices, but that they have only exercised this authority in the area 
of mergers and actual rate cases.
    Do you believe that there are legitimate concerns with regard to 
freight rail competition? What actions do you intend to take to assert 
the role of the STB and broaden its limited scope of investigation?
    Answer. During my courtesy meetings with Members of the Commerce, 
Science, and Transportation Committee, several Senator raised the 
concerns you have highlighted. I recognize the Surface Transportation 
Board (STB), an independent regulatory agency, continues to struggle 
with this issue. Although I am not familiar with the specific cases 
before the STB, I am aware of the need to bring together small and 
large railroads, shippers, states, local communities, and other 
interested parties to mitigate some of these rate concerns. Where 
competition is not easily achievable, railroads and shippers need to 
have the ability to resolve their differences in a fair and unbiased 
manner. Additionally, if confirmed, I promise to reach out to the STB 
and have regular dialogue with its appointed board members on these 
issues.

    Question 7. Do you believe that the STB should have more authority? 
Should they have the power to suspend rates during an investigation? 
Should the burden of proof in rate cases be shifted from the freight 
rail shipper to the freight rail carrier itself?
    Answer. I believe it is generally accepted that the Staggers Act 
has been a success for both railroads and shippers. I also understand 
that the Surface Transportation Board (STB) has several matters pending 
that could address some of these issues, including one dealing with 
fuel surcharges and another addressing rate case resolution. At this 
time, I do not have any personal opinions on whether any changes need 
to be made. If confirmed, I would be interested in discussing these 
issues with the rail industry, shippers, states and local communities 
to determine how we can ensure an equitable process.

    Question 8. As you know, the U.S. and the nations of the European 
Union (EU) have been working on an ``Open Skies'' agreement. However, a 
key issue in this negotiation involves increased foreign ownership 
rights. Through a recently announced Notice of Proposed Rulemaking 
(NPRM), the Administration is proposing to redefine the actual control 
test to cover only safety and security decisions, and permit other 
economic decisions, including day-to-day operations, market strategy, 
and purchase of aircraft, to be controlled by foreign officials.
    What are your thoughts with regard to granting all the European 
Community carriers rights to U.S. domestic routes and vice-versa, 
giving U.S. carriers rights to intraEuropean Community (EC) routes? 
What are the economic implications, if any, of shifting from bilateral 
to multilateral aviation agreements?
    Answer. The United States has not proposed, nor does the draft 
U.S.-E.U. Air Transport Agreement reached last November contain, rights 
for EC airlines to operate U.S. domestic routes. Such operations are 
prohibited by U.S. law, and I would not support changing this law.
    I believe that the benefits of extending the Open-Skies regime to 
all markets between the U.S. and the EU through a single agreement will 
transcend anything achieved through the bilateral process.

    Question 9. As you know, the contract negotiations between FAA and 
the National Air Traffic Controllers Association reached an impasse 
last April and formally ended negotiations. To my disappointment, 
Congress was unable to review the FAA proposal within the 60 days as 
required under statute and as a result, the FAA implemented its own 
proposal without have to return to the bargaining table with NATCA. 
That is why I cosponsored legislation (S. 2201) that would have 
required the FAA and NATCA to go back to negotiations.
    What is your experience with handling contract negotiations between 
an employer and its employees? Given current law, how do you intend to 
ensure the FAA puts forward the best contract offer on its employees?
    Answer. I believe that contract negotiations between employers and 
employees should be conducted in good faith, and follow all legal 
requirements. If confirmed, I will work with Administrator Blakey and 
the NATCA to open dialogue between the agency and the union. I placed a 
call to Pat Forrey, the new President of NATCA, immediately after my 
nomination was announced and should I be confirmed, would plan to meet 
with him to start this process.

    Question 10. The FAA's goal to enhance the quality of flight 
service centers at a considerable savings while improving service and 
technology is laudable. However, I strongly believe enacting reform to 
achieve cost savings cannot come at the expense of government workers.
    What is your strategy/approach to improving aviation services while 
at the same time, reducing air traffic control operating costs?
    Answer. I am committed to delivering government services in as 
efficient and cost-effective manner as possible. My experience at both 
the state and Federal levels has taught me that this can be achieved 
through strategic budget planning, effective program oversight, and 
smart management of our personnel--our most important resource. One of 
my management priorities is to have an open dialogue with all 
Departmental employees as to how we may best serve the public, 
including how we can invest in the best training and most advanced 
technology to improve productivity. If confirmed as Secretary, I would 
take every opportunity to improve efficiency and safety of the air 
traffic operation while maintaining a high degree of customer service 
and a commitment to be fair to our employees.

    Question 11. One of the pending issues is the implementation of the 
program called Projects of National and Regional Significance at the 
Federal Highway Administration. The SAFETEA-LU legislation set out 
activities for that program that include working toward a 
recommendation for the full Federal involvement in projects funded by 
the program. In my state, the Alaskan Way Viaduct project in Seattle 
was allocated $ 220 million from this program in SAFETEA-LU.
    What will the Department, working with Washington State DOT and the 
City of Seattle, do to ensure that the full funding provided for the 
project in SAFETEA-LU remains available for the project and to develop 
a Federal funding recommendation for the project that extends beyond 
the life of the SAFETEA-LU legislation?
    Answer. I understand that the FHWA is working with the State of 
Washington in the development of the finance plan for the Alaskan Way 
Viaduct, which will include identification of funding for the project 
beyond SAFETEA-LU. If confirmed, I assure that I will monitor the 
progress of this important project.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Hon. Mary E. Peters

    Question 1. If confirmed, will you encourage or pursue the sale of 
state roads, even to foreign corporations?
    Answer. States and other non-Federal authorities own and operate 
the vast majority of roads in America. Many of these roads, including 
the older toll road systems, were constructed prior to the creation of 
the interstate highway system with little or no Federal financial 
support. Where the facilities were built using Federal funds, I believe 
it is important that the public interest is protected in any potential 
transaction.
    In my time at FHWA, I supported giving states flexibility to 
explore new partnerships with the private sector. With the enactment of 
SAFETEA-LU, Congress also declared its support for more state 
flexibility. The question that must always be asked is: does the 
contractual arrangement improve performance of the facility, enhance 
customer services and protect the interests of the taxpayer. If the 
public interest and security can be protected in connection with these 
types of transactions, then we should continue to support them.

    Question 2. If confirmed, will you ensure that any redesign of the 
airspace over New York and New Jersey takes into full account the 
effects of noise pollution on citizens?
    Answer. Yes.

    Question 3. If confirmed, will you ensure that the air traffic 
controller contract which was unilaterally imposed on the U.S. air 
traffic controller workforce will be fairly implemented?
    Answer. Yes.

    Question 4. If confirmed, would you work to reinstate the mandatory 
rest period after 2 hours of work for air traffic controllers?
    Answer. While I am not familiar with the specifics of the air 
traffic controller contract, I will consult with the FAA Administrator 
to ensure adequate rest periods for all safety-sensitive positions 
including controllers.

    Question 5. If confirmed, will you work to formulate a fair 
agreement with the State of New Jersey on a full funding grant 
agreement for a new rail tunnel under the Hudson River, consistent with 
state matching requirements for other Federal projects?
    Answer. It is my understanding that this project was recently 
approved into preliminary engineering by the Federal Transit 
Administration. Should I be confirmed, I look forward to working with 
you and the State of New Jersey on this regionally significant project.

    Question 6. If confirmed, will you ensure that Amtrak receives its 
capital and operating grants from the USDOT in a timely manner?
    Answer. Yes.

    Question 7. Aside from notifying Congress, as you promised to do 
before taking any departmental action on the USDOT's rulemaking effort 
to change the rules on foreign ownership and control of U.S. airlines, 
if confirmed, will you commit to withdrawing the rulemaking, which has 
been voted down by both Houses of Congress?
    Answer. I was not involved in the development of the Department's 
proposed rulemaking. As such, I will not commit to any action before I 
have had the chance to review the comments filed by interested parties.

    Question 8. If confirmed will you take any action to pursue changes 
in the Federal laws concerning truck size and weight standards, aside 
from the use of truck-only lanes?
    Answer. No.

    Question 9. If confirmed, will you pursue or require the use of 
electronic on-board enforcement devices for trucker hours of service 
enforcement?
    Answer. If confirmed, I will review the Electronic On-Board 
Recorder NPRM and work with FMCSA to expedite the rulemaking process.

    Question 10. Regarding New Jersey's continued use of multi-year 
funding as an accepted financing method for infrastructure projects, 
the former Secretary and current FHWA Administrator stated that the 
Administration will not back away from the agreement reached with the 
New Jersey Department of Transportation last fall. The statement in 
that agreement pertaining to multi-year funding indicates that FHWA 
will continue to honor New Jersey's multi-year funding approach. Can 
you confirm my understanding that this agreement applies to both the 
current Statewide Transportation Improvement Program (FY06-FY08) as 
well as the FY07-FY10 Statewide Transportation Improvement Program?
    Answer. Yes.

    Question 11. If you are confirmed as Secretary, will FHWA continue 
to approve New Jersey's use of multiyear funding in Statewide 
Transportation Improvement Programs beyond FY07?
    Answer. Yes.

    Question 12. As former Secretary Mineta stated, congestion costs 
our country about $200 billion a year. He proposed a strategy to reduce 
congestion, but I found it to be lacking in terms of passenger travel 
needs, and the use of rail service. Will you continue this initiative, 
and will you take the opportunity to correct some of the problems?
    Answer. If confirmed, I plan to continue this initiative. I share 
the former Secretary's concern about congestion clogging our highways, 
railways, airports and seaports--and the staggering costs this 
congestion imposes. I see the National Strategy to Reduce Congestion on 
America's Transportation Network, as a flexible document intended to 
offer useful guidance to states, counties, cities and other localities 
in search of solutions for combating congestion. As we progress with 
this initiative, we will continue to modify our strategy as further 
analysis and circumstances dictate. If confirmed, I look forward to 
working with you to ensure that rail, intercity bus, and other long-
distance travel modes are included in the congestion solution for our 
states and localities.

    Question 13. If confirmed, will you pursue Federal efforts to 
encourage or require motorcycle helmet use?
    Answer. As an avid motorcyclist, I would never consider getting on 
one of my bikes without wearing my helmet. As FHWA Administrator, I 
made highway safety my highest priority and worked closely with the 
Administrators of the Federal Motor Carrier Safety Administration 
(FMCSA) and the National Highway Traffic Safety Administration (NHTSA) 
to develop strategies for reducing fatalities and injuries. Should I be 
confirmed, I plan to continue placing a heavy emphasis on safety 
initiatives and programs such as those promoting greater use of 
motorcycle helmets.

    Question 14. If confirmed, how will you ensure that we have a 
balanced transportation system, with rail travel options for both 
travelers and freight shippers?
    Answer. The success of passenger rail systems is predicated on on-
time, quality service. I recognize this requires frequent dialogue 
between passenger and freight rail operators. Additionally, America's 
economy relies on an efficient freight rail system which we must 
preserve. If confirmed, I commit to you the Department will be engaged 
on this issue.

    Question 15. Do you have plans to privatize our government 
functions that are currently handled by Federal officials and 
employees? What about the contracting out of work currently performed 
by Federal officials and government employees?
    Answer. I have no plans to privatize government functions that are 
currently handled by Federal employees. I support DOT managers using 
contractors as part of their overall workforce planning, if such use 
provides a cost benefit to the American taxpayer and the service 
provide by the contractor is not inherently governmental.

    Question 16. If confirmed, will you allow the hiring by USDOT 
agencies of contractors to prepare reports of agency activities?
    Answer. If confirmed, I will allow USDOT agencies to utilize 
contractors as part of their overall workforce planning, if such use 
provides a cost benefit to the American taxpayer and the service 
provided by the contractor is not inherently governmental.

    Question 17. If confirmed, will you ensure that all ``prepackaged 
news stories'' funded or produced by the Department of Transportation 
will include disclaimers clearly notifying the audience that the U.S. 
Government produced or funded the news segment?
    Answer. Yes.

                                  <all>

</pre></body></html>
